<html>
<title> - WATCHDOG RECOMMENDATIONS: A BETTER WAY AHEAD TO MANAGE THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 WATCHDOG RECOMMENDATIONS: A BETTER WAY AHEAD TO MANAGE THE DEPARTMENT 
                          OF HOMELAND SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE
                               
                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

                            Serial No. 115-5

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-399 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                
                                
                                ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          J. Luis Correa, California
Tom Marino, Pennsylvania             Kathleen M. Rice, New York
John Ratcliffe, Texas                Nanette Diaz Barragan, California
Clay Higgins, Louisiana              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. John Roth, Inspector General, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Ms. Rebecca Gambler, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                             For the Record

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Email..........................................................     5

                                Appendix

Questions From Chairman Scott Perry for John Roth................    45
Questions From Ranking Member Bennie G. Thompson for John Roth...    46
Questions From Chairman Scott Perry for Rebecca Gambler..........    49
Questions From Ranking Member Bennie G. Thompson for Rebecca 
  Gambler........................................................    50

 
 WATCHDOG RECOMMENDATIONS: A BETTER WAY AHEAD TO MANAGE THE DEPARTMENT 
                          OF HOMELAND SECURITY

                              ----------                              


                      Thursday, February 16, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room HVC-210, Capitol Visitors Center, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Ratcliffe, Higgins, Correa, 
Rice, and Barragan.
    Mr. Perry. The Committee on Homeland Security Subcommittee 
on Oversight and Management Efficiency will come to order. The 
purpose of this hearing is to receive testimony regarding 
recommendations from the DHS Office of Inspector General, the 
OIG; and the Government Accountability Office, or the GAO; to 
improve the efficiency and effectiveness of the Department of 
Homeland Security.
    Before we begin I would like to welcome the new Members of 
the subcommittee. They bring with them tremendous private 
sector, law enforcement, and other experience, which will be 
helpful in the subcommittee's oversight of DHS.
    I also look forward to working with our colleagues on the 
other side of the aisle. Ranking Member Correa and I met 
recently to discuss the subcommittee's priorities, and I look 
forward to working with him on areas--well, on all areas and 
ones of mutual interest, as well.
    Chair now recognizes himself for an opening statement.
    For the past 8 years we watched the administration turn a 
blind eye to bureaucratic waste, inefficiency, and 
mismanagement. We witnessed an ever-expanding bureaucracy and 
an ever-diminishing National security complex.
    We raised alarms about security threats and watched 
horrified as terrorists attacked us on our soil right here at 
home; as hackers exploited vulnerabilities in our cyber 
networks; and as smugglers trafficked drugs, weapons, and 
unlawful immigrants across our porous borders.
    The Department of Homeland Security simply must find a 
better way to prioritize and tackle these challenges. Last fall 
House Republicans proposed the ``Better Way'' agenda to do just 
that--provide a better way to secure our homeland, grow our 
economy, and make Government more accountable to the people.
    Today's hearing will focus on a better way to manage DHS to 
prevent waste, fraud, abuse, and mismanagement, and to correct 
the outright negligence of the previous administration.
    I know first-hand that Americans are fed up with the status 
quo and are looking for ways to improve how the Government does 
business. As Chairman of this subcommittee I have seen that an 
unchecked and bloated bureaucracy results in failed programs 
and wasted taxpayer dollars.
    Simply put, DHS's bureaucracy should get operators what 
they need at the best cost to the taxpayer, and then get the 
heck out of the way.
    Last Congress I chaired hearings to examine instances where 
that was not the case, where dysfunction and mismanagement 
impeded the mission--instances such as DHS's botched management 
of the multibillion-dollar Human Resources Information 
Technology, or HRIT, program; DHS's total waste of taxpayer 
dollars on the Federal Protective Service's vehicle program, 
where it had literally more vehicles than officers to drive 
them; and DHS's failed oversight of employee misconduct at the 
Transportation Security Administration and U.S. Secret Service.
    Every dollar wasted by inept bureaucrats is one less that 
can be spent on securing our homeland. Mismanagement puts our 
security at risk.
    The Heritage Foundation recently recommended that DHS rein 
in a bloated bureaucracy through a strong chain of command over 
component management functions so that DHS effectively equips, 
supports, and oversees its components. I am hopeful that the 
new Secretary, John Kelly, will use his military experience to 
do what the last administration couldn't or wouldn't, which is 
provide front-line operators with the necessary tools for 
getting the job done and keeping our Nation safe.
    Agency watchdogs like those we will hear from today bring 
invaluable insights to the issues facing the Department. 
Collectively, the Government Accountability Office and the DHS 
Office of Inspector General have made thousands of 
recommendations to improve DHS programs since the Department's 
inception. I look forward to hearing from GAO and OIG on the 
ways that the Department can eliminate waste, fraud, and abuse, 
and mismanagement.
    In particular, I would like to hear about the steps DHS has 
taken to get off GAO's high-risk list of areas in the Federal 
Government that are most susceptible to mismanagement. 
Yesterday GAO reported that DHS's management functions remain 
ineffective, the Federal Government's cybersecurity activities 
need strengthening, and DHS's National Flood Insurance Program 
is unaffordable.
    In addition to GAO's high-risk list report, each year the 
OIG releases an annual report on major management challenges 
facing DHS. The 2016 report identified six broad areas where 
the Department faces serious management and performance 
challenges. OIG also identified hundreds of millions of dollars 
in questionable costs and funds.
    Hundreds of recommendations by these watchdogs remain open 
and unimplemented by DHS, and this is unacceptable. I urge the 
Trump administration to fully leverage the work of these 
watchdogs to drain the waste and inefficiency from DHS.
    Washington bureaucrats may dismiss these management issues 
as simply the cost of doing business in Government. That is 
wrong. The American taxpayer deserves much better.
    After years and years of failing to rein in Washington's 
bureaucracy, Americans demand more from their Government. It is 
time to demand more from and find a better way to manage the 
Department of Homeland Security.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                           February 16, 2017
    For the past 8 years, we watched the Obama administration turn a 
blind eye to bureaucratic waste, inefficiency, and mismanagement. We 
witnessed an ever-expanding bureaucracy and an ever-diminishing 
National security complex. We raised alarms about security threats and 
watched--horrified--as terrorists attacked us on our home soil; as 
hackers exploited vulnerabilities in our cyber networks; and as 
smugglers trafficked drugs, weapons, and unlawful immigrants across our 
porous borders. The Department of Homeland Security (DHS) simply must 
find a better way to tackle these challenges.
    Last fall, House Republicans proposed the ``Better Way'' agenda to 
do just that--provide a better way to secure our homeland, grow our 
economy, and make Government more accountable to the people. Today's 
hearing will focus on a better way to manage DHS to prevent waste, 
fraud, abuse, and mismanagement, and to correct the outright negligence 
of the Obama administration. I know first-hand that Americans are fed 
up with the status quo and are looking for ways to improve how the 
Government does business. As Chairman of this subcommittee, I've seen 
that an unchecked and bloated bureaucracy results in failed programs 
and wasted taxpayer dollars. Simply put, DHS's bureaucracy should get 
operators what they need at the best cost to the taxpayer, and then get 
out of the way. Last Congress, I chaired hearings to examine instances 
where that was not the case; where dysfunction and mismanagement 
impeded the mission--instances such as:
  <bullet> DHS's botched management of the multi-billion dollar Human 
        Resource Information Technology (HRIT) program;
  <bullet> DHS's total waste of taxpayer dollars on the Federal 
        Protective Service's vehicle program, where it had more 
        vehicles than officers to drive them; and
  <bullet> DHS's failed oversight of employee misconduct at the 
        Transportation Security Administration and the U.S. Secret 
        Service.
    Every dollar wasted by inept bureaucrats is one less that can be 
spent on securing our homeland. Mismanagement puts our security at 
risk. The Heritage Foundation recently recommended that DHS reign in a 
bloated bureaucracy through a strong chain of command over component 
management functions so that DHS effectively equips, supports and 
oversees its components. I am hopeful that the new Secretary, John 
Kelly, will use his military experience to do what the last 
administration couldn't--provide front-line operators with the 
necessary tools for getting the job done and keeping our Nation safe.
    Agency watchdogs like those we'll hear from today--bring invaluable 
insights to the issues facing the Department. Collectively, the 
Government Accountability Office (GAO) and the DHS Office of Inspector 
General (OIG) have made thousands of recommendations to improve DHS 
programs since the Department's inception. I look forward to hearing 
from GAO and OIG on ways that the Department can eliminate waste, 
fraud, abuse, and mismanagement.
    In particular, I'd like to hear about steps DHS has taken to get 
off GAO's ``High-Risk List'' of areas in the Federal Government that 
are most susceptible to mismanagement. Yesterday, GAO reported that 
DHS's management functions remain ineffective, the Federal Government's 
cybersecurity activities need strengthening, and DHS's National Flood 
Insurance Program is unaffordable.
    In addition to GAO's High-Risk List report, each year the OIG 
releases an annual report on major management challenges facing DHS. 
The 2016 report identified six broad areas where the Department faces 
serious management and performance challenges. OIG also identified 
hundreds of millions of dollars in questionable costs and funds. 
Hundreds of recommendations by these watchdogs remain open and 
unimplemented by DHS--this is unacceptable. I urge the Trump 
administration to fully leverage the work of these watchdogs to drain 
the waste and inefficiency from DHS.
    Washington bureaucrats may dismiss these management issues as 
simply the cost of doing business in government. Wrong. The American 
taxpayer deserves much better. After 8 years of failing to reign in 
Washington's bureaucracy, Americans demand more from their Government. 
It's time to demand more from, and find a better way to manage the 
Department of Homeland Security.

    Mr. Perry. The Chair now recognizes the Ranking Minority 
Member of the subcommittee, the gentleman from California, Mr. 
Correa, for his statement.
    Mr. Correa. Chairman Perry, thank you very much for holding 
this hearing today. I also look forward to working with you on 
the Subcommittee on Oversight and Management Efficiency to help 
ensure the Department of Homeland Security fulfills its 
critical mission.
    Thank you, Inspector General Roth and Ms. Gambler, for 
being here today.
    I would also like to take a moment to recognize the men and 
women that serve in the DHS Office of the Inspector General and 
the Government Accountability Office for the incredible work 
that you all do.
    Independent investigative bodies such as OIG and GAO are 
critically important to keeping the Federal Government 
accountable to the American people, to the American taxpayers. 
The significance of your work cannot be overstated, as you are 
responsible for protecting American taxpayers from fraud, 
waste, and abuse.
    The importance of your work was shown even more when on 
February 1 you, Inspector General Roth, announced an 
investigation into the President's Muslim ban Executive Order. 
Once again, thank you.
    Unfortunately, it appears that neither the President of the 
United States nor senior White House aides seems to comprehend 
nor appreciate the important role of oversight in our Nation's 
system of checks and balances. This past Sunday the President's 
senior policy advisor, Steve Miller, declared that this 
President's National security decision will not be questioned.
    Such a statement ignores a Constitutional responsibility 
that we as Congress have to hold the Executive branch 
accountable in the grand tradition of Americans challenging the 
President on their National security stances. This White House 
believes that it is above receiving oversight.
    On the evening of January 13 an e-mail from the 
Presidential transition team instructed all of his transition 
team leaders to reach out tonight and inform the inspector 
general and their agencies that they are being held over on a 
temporary basis. This essentially insinuated that the inspector 
general should seek other employment.
    Mr. Chairman, I would like to request unanimous consent to 
submit into the record the e-mail circulated by the 
administration transition team stating that the inspectors 
general were being held over on a temporary basis.
    Mr. Perry. Without objection.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Correa. Shortly before this e-mail was circulated the 
new secretary at DHS, General John Kelly, Stated in his pre-
confirmation hearing questionnaire that he, ``will take 
seriously the findings of the Department of Inspector General 
and the GAO and will maintain a rigorous system to track 
management issues and the implementation of corrective 
actions.''
    Today I look forward to hearing from the witnesses about 
the important work they have completed, such as helping to 
ensure DHS continues to improve its management operations and 
to ensure that DHS puts those limited taxpayer resources toward 
operating efficiently and effectively in a more critical role, 
as DHS expects to direct up to $21 billion to build a wall 
along the U.S.-Mexico border. As you know, as many as--many 
drugs, I should say, and over 90 percent of the cocaine 
produced in South America coming to America is done via the 
oceans.
    Turning to the GAO high-risk list, I am encouraged the 
Department has made some very good progress since the last 
report. I must extend credit to the former Secretary of 
Homeland Security, Secretary Johnson, whose initiatives such as 
Unity of Effort and the Joint Requirement Council helped move 
the Department in a positive direction.
    I do hope that the administration takes DHS management 
seriously because effective management does lead to better 
employee morale, program efficiency, and Department unity.
    With that, Mr. Chairman, I yield the remainder of my time.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                           February 16, 2017
    I would also like to take a moment to recognize the men and women 
that serve in the DHS Office of the Inspector General and the 
Government Accountability Office for the incredible work that you do. 
Independent, investigatory bodies, such as the OIG and GAO, are 
critical to keeping the Federal Government accountable to the American 
people. The significance of your work cannot be overstated, as you are 
responsible for protecting the American taxpayer from waste, fraud, and 
abuse.
    The importance of your work was shown even more, when on February 
1, you, Inspector General Roth, announced an investigation into the 
President Trump's Muslim Ban Executive Order. Once again, thank you.
    Unfortunately, it appears that neither the President of the United 
States nor his Senior White House aides seem to comprehend nor 
appreciate the important role of oversight in our Nation's system of 
checks and balances. This past Sunday, President Trump's senior policy 
advisor, Stephen Miller, declared that this President's National 
security decisions ``will not be questioned.''
    Such a statement ignores the Constitutional responsibility that we, 
as Congress, have to hold the Executive branch accountable and the 
grand tradition of Americans challenging Presidents on their National 
security stances. This White House believes that it is above receiving 
oversight.
    On the evening of January 13, an email from the Trump transition 
team instructed all transition team leaders to ``reach out tonight and 
inform'' the inspectors general in their agencies ``that they are being 
held over on a temporary basis,'' insinuating that the inspectors 
general should seek other employment.
    Shortly before this email was circulated, the new Secretary of DHS, 
General John Kelly, stated in his Pre-Confirmation Hearing 
Questionnaire that he ``will take seriously the findings of the 
Department Inspector General and GAO and will maintain a rigorous 
system to track management issues and the implementation of corrective 
actions.''
    Today, I look forward to hearing from the witnesses about the 
important work they have completed, such as helping to ensure DHS 
continues improving its management operations.
    Ensuring that DHS puts its limited taxpayer resources towards 
operating efficient and effectively is all the more critical at this 
moment in our Nation, when DHS is expected to be directed to spend 
upwards of $21 billion to build a wall along the U.S.-Mexico border--
many drugs and over 90 percent of cocaine produced in South America 
destined to the United States is done via maritime conveyance.
    Turning to the GAO High-Risk List, I am encouraged that the 
Department made some progress since the last report. I must extend 
credit to the former Secretary of Homeland Security Jeh Johnson, whose 
initiatives such as Unity of Effort and the Joint Requirements Council, 
helped move the Department in a positive direction.
    I certainly hope the Trump administration takes DHS management 
seriously, because effective management leads to better employee 
morale, program efficiency, and Departmental unity.

    Mr. Perry. Chair thanks the Ranking Member.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 16, 2017
    The work done to ensure that the Federal Government is accountable 
to the American people is more valuable than ever. Over the years, both 
the DHS Inspector General and the Government Accountability Office have 
been reliable resources to this committee, warning us when programs 
were not performing to our expectations and identifying ways that DHS 
can do better. The reports you issue have driven change at DHS, 
resulted in millions of taxpayer dollars being saved, and brought about 
improvements throughout the organization.
    Inspector General Roth, you put it best when you said, ``No 
government agency, no matter how dysfunctional, will change on its own 
accord. Independent oversight is a critical and necessary ingredient 
for positive, constructive change.'' The dysfunction you speak of has 
certainly been evident from Day One of President Trump's 
administration. When, on the evening of January 27, 2017, President 
Trump signed an Executive Order directing a seven-country Muslim-ban, 
the Department of Homeland Security was suddenly thrust into utter 
confusion.
    Some travelers who were in the air when the EO was signed weren't 
allowed to enter the country when they landed, some were detained, and 
others were sent back to their country of departure. When confronted 
with questions, some Customs and Border Patrol Officers suggested that 
impacted travelers and their families should direct all their questions 
to the President himself since they, themselves, lacked clarity about 
the parameters of the EO that they were directed to enforce.
    In fact, just last week, a Member of this subcommittee shared with 
the committee how, when she went to the international airport in her 
district in the hours after the EO's issuance and pressed CBP officials 
for answers about how the Order was being implemented, they would not 
speak with her.
    The new DHS Secretary, General John Kelly, has defended President 
Trump's EO, but testified before this committee last week that he does 
not believe the roll-out should have happened so quickly, specifically 
saying the EO should have been delayed ``just a bit'' so Members of 
Congress could be prepared. Thank you, Inspector Roth, for taking on 
the critical task of investigating this EO and for reviewing all 
documentation related to its implementation.
    This is a perfect example of why investigative bodies such as the 
OIG and GAO are vital to maintaining the integrity and efficiency of 
the Federal Government. It is more than a little disturbing to see the 
statements issued by President Trump and the people in his inner circle 
that reflect the view that they are not to be questioned and are 
unwilling to subject their activities to oversight from the press, 
Congress, and Federal watchdogs.
    On January 13, the Trump transition team instructed transition 
leaders via email to contact inspectors general that very same day, and 
inform them they are being held over on a temporary basis.
    It is hard to know whether the Trump folks were purposely seeking 
to chill oversight with this directive but I am heartened that 
courageous watchdogs not only in OIGs across the Government but also at 
the Office of Government Ethics are standing their ground.
    Impartial assessments from inspectors general that identify fraud, 
abuse, mismanagement, and waste of taxpayer funds are essential to our 
democracy. The statements out of this White House also send the wrong 
message to the men and women that make up our Executive branch, 
including within DHS.
    While I am not surprised at all that the man who currently sits in 
the Oval Office thinks he is above oversight, I am concerned that the 
House Republican Leadership have, to date, refused to take a sober look 
at the growing mountain of evidence of contacts between Trump's people 
and Russian intelligence officials during the period where Russia was 
interfering in the election to help get Mr. Trump elected.
    Unless the House Republicans step up, they risk the American public 
and history seeing them as puppets of a President who shows such 
derision toward the Constitutional principles that undermine this 
democracy.
    Given that, to date, House Republicans have willfully refused to do 
their job, Congress has to lean on you--the Watchdogs--to do more.
    Inspector General Roth, I applaud your colleague at the Department 
of Justice for investigating alleged misconduct by the FBI director and 
other DOJ employees in the lead up to the 2016 election.
    But that one review by one inspector general is not enough to fully 
restore public confidence among the people I talk with in the 
institutions that are Constitutionally charged with protecting our 
Nation's democratic system.
    There is still a need for an independent, non-partisan 
investigation--akin to the one carried out by the 9/11 Commission--into 
Russia's interference in the 2016 election. This is a critical moment 
in our Nation.
    All of us who took oaths to uphold the Constitution, whether we sit 
in an OIG office or at the GAO or in the halls of Congress, need to ask 
tough questions and demand answers from President Trump and his 
administration.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statements will appear in the record.
    The Chair will introduce the witnesses first and then 
recognize each of you for your testimony.
    The Honorable John Roth assumed the post of inspector 
general for the Department of Homeland Security in March 2014. 
Previously Mr. Roth served as the director of the Office of 
Criminal Investigations at the Food and Drug Administration, 
and as an assistant U.S. attorney for the Eastern District of 
Michigan.
    Ms. Rebecca Gambler is the director of homeland security 
and justice issues with the Government Accountability Office. 
Ms. Gambler leads GAO's work related to border security and 
immigration as well as DHS's management issues, and is a proud 
graduate of Messiah College, which is about a mile from where I 
grew up.
    Thank you for being here today.
    The Chair recognizes Mr. Roth for an opening statement.

 STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Roth. Good afternoon. Chairman Perry, Ranking Member 
Correa, Members of the subcommittee, thank you for inviting me 
here today to testify.
    Homeland Security has made progress in the last 3 years, 
yet faces long-standing, persistent challenges. We at the 
Office of Inspector General have focused our energy on the 
Department's major management and performance challenges.
    We have identified six: No. 1, creating a unified 
Department; No. 2, employee morale and engagement; No. 3, 
acquisition management; No. 4, grants management; No. 5, 
cybersecurity; and last, improving management fundamentals.
    With a new administration the Department will face new 
responsibilities. We understand the significant investment the 
Department will be making to satisfy its obligations under the 
President's Executive Order and the importance of spending that 
investment efficiently and effectively.
    The Department has historically performed very poorly in 
this area, that is securing the southern land border. As many 
recall, prior efforts to fortify the Southwest Border, known as 
SBInet, were canceled in 2011 as being too expensive and too 
ineffective. In a pilot program in Arizona, for example, DHS 
spent about $1 billion to build the system across only 53 miles 
of State's border before abandoning that initiative.
    Given the risks involved, we will be using a life-cycle 
approach to audit and monitor the Department's actions to 
strengthen the physical security of the Nation's Southern 
Border. A life-cycle audit approach means that we will be 
auditing the project throughout its lifespan rather than 
waiting for the project to be completed or partially completed 
before looking at it. In this way, we have the opportunity to 
stop waste and mismanagement before the money is spent, rather 
than simply identifying it after the fact.
    Our first report will address the lessons learned from the 
Department's prior Secure Border Initiative and other relevant 
acquisitions related to securing our borders. We hope to have 
this report out in the next 6 weeks.
    Subsequently, we plan to review CBP's comprehensive study 
of the security of the Southern Border that the Executive Order 
requires be completed within 180 days of the Executive Order. 
Future audits will address the planning, designing, 
acquisition, and construction phases of the Southern Border 
barrier.
    Similarly, the Department will face a number of challenges 
in executing the President's Executive Orders directing the 
Department to hire an additional 5,000 Border Patrol agents and 
10,000 immigration officers.
    We recently completed an audit that highlighted the 
numerous bottlenecks in effective hiring. In fiscal year 2015, 
for example, it took an average of 282 days, which is over 9 
months, to hire a Border Patrol agent, measured from the time 
that the job announcement closed to the date the applicant was 
hired. Other positions have likewise encountered significant 
delays.
    As with the acquisition area, I have initiated the first in 
a series of audits to further review the Department's human 
capital strategies and management capabilities to ensure that 
the Department can quickly and effectively hire a highly 
qualified and diverse work force. Our first engagement will 
compile and review open-source literature, other Government 
reports, and our prior work to help the Department and its 
components avoid previously-identified poor management 
practices and their negative impacts.
    One of the areas we will continue to focus on is 
acquisition management. Acquisition management, which is 
critical to fulfilling all DHS missions, is inherently complex, 
high-risk, and challenging. There continue to be DHS major 
acquisition programs that cost more than expected, take longer 
to deploy than planned, and deliver less capability than 
promised.
    For example, the USCIS continues challenges in its efforts 
to automate immigration benefits. After 11 years, USCIS has 
made little progress in transforming its paper-based processes 
into a modern automated system. It still uses a paper-based 
process, something akin to the 1950's, to manage a complex and 
growing workload.
    The USCIS deployed the Electronic Immigration System in May 
2012, but to date customers can apply on-line for only two of 
about 90 different types of immigration benefits and services. 
As we reported in March 2016, USCIS now estimates it will take 
more than 3 years to address these issues--over 4 years longer 
than estimated, and an additional $1 billion to automate all 
benefit types. This delay will prevent USCIC from achieving its 
workload processing, National security, and customer service 
goals.
    These failures have a real impact on our National security. 
Errors can result in approved applicants unable to obtain 
benefits, maintain employment, or prove lawful immigration 
status. In the wrong hands, green cards may enable terrorists, 
criminals, and illegal aliens to remain in the United States 
and access immigration benefits.
    Mr. Chairman, this concludes my testimony. I am happy to 
answer any questions that you or other Members of the committee 
may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                           February 16, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, thank you for inviting me here today to discuss our 
recommendations for improving the Department of Homeland Security 
(DHS).
    Since its establishment, DHS has progressed in addressing 
challenges to accomplish its mission. However, to fulfill its vital 
mission of protecting and securing our Nation successfully, the 
Department must continue to overcome challenges that hinder its 
efforts. The recommendations discussed below demonstrate our efforts to 
assist the Department and its components in overcoming the persistent 
challenges. By addressing these recommendations, DHS can continue to 
improve effectiveness and efficiency of its operations and reduce 
waste, fraud, and abuse.
                       priorities and challenges
    Homeland Security faces many long-standing challenges, and we at 
the Office of Inspector General (OIG) have focused our energy on the 
Department's major management and performance challenges. We have 
identified six:
  <bullet> Creating a unified Department;
  <bullet> Employee morale and engagement;
  <bullet> Acquisition management;
  <bullet> Grants management;
  <bullet> Cybersecurity; and
  <bullet> Improving management fundamentals.\1\
---------------------------------------------------------------------------
    \1\ Major Management and Performance Challenges Facing the 
Department of Homeland Security, OIG-17-08 (November 2016).
---------------------------------------------------------------------------
    Today, I will focus on the challenges the Department faces in four 
areas: Creating a unified Department, acquisition management, grants 
management, and management fundamentals, as well as newly-arising 
challenges.
                       addressing new priorities
    With a new administration, the Department will face new 
responsibilities. We understand the significant investment the 
Department will be making to satisfy its obligations under the 
President's Executive Order, Border Security and Immigration 
Enforcement Improvements, and the importance of spending that 
investment efficiently and effectively. The Department has historically 
performed very poorly in this area. As many recall, prior efforts to 
fortify the Southwest Border, known as SBInet, were canceled in 2011 as 
being too expensive and ineffective. In a pilot program in Arizona, DHS 
spent about $1 billion to build the system across 53 miles of the 
State's border before abandoning the initiative.\2\
---------------------------------------------------------------------------
    \2\ See, e.g., Risk Management Advisory for the SBInet Program 
Initiation, OIG-07-07 (November 2006); Controls Over SBInet Program 
Cost and Schedule Could Be Improved, OIG-10-96 (June 2010); U.S. 
Customs and Border Protection's Management of the Purchase and Storage 
of Steel in Support of the Secure Border Initiative, OIG-12-05 
(November 2011).
---------------------------------------------------------------------------
    Given the risks involved, we will be using a life-cycle approach to 
audit and monitor the Department's actions to strengthen the physical 
security of the Nation's Southern Border. A life-cycle audit approach 
means that we will be auditing the project throughout its life span, 
rather than waiting for the project to be completed or partially 
completed before looking at it. In this way, we have an opportunity to 
stop waste and mismanagement before the money is spent, rather than 
simply identifying it after the fact.
    Our first report will address lessons learned from the Department's 
prior Secure Border Initiative and other relevant acquisitions related 
to securing our borders. We hope to have this report out in the next 6 
weeks. Subsequently, we plan to review U.S. Customs and Border 
Protection's (CBP) comprehensive study of the security of the Southern 
Border that the Executive Order requires be completed within 180 days 
of the date of the Executive Order. Future audits will address the 
planning, designing, acquisitions, and construction phases of the 
Southern Border barrier.
    Similarly, the Department will face a number of challenges in 
executing the President's Executive Orders directing the Department to 
hire an additional 5,000 Border Patrol Agents and 10,000 Immigration 
Officers. We recently completed an audit that highlighted numerous 
bottlenecks in effective hiring. We found that historically DHS 
components had insufficient staffing in the human resource area and had 
inadequate systems to track and process applicants. In fiscal year 
2015, it took an average of 282 days (over 9 months) to hire a Border 
Patrol Agent, measured from the time the job announcement closed to the 
date the applicant was hired. Other positions likewise encountered 
significant delays.\3\
---------------------------------------------------------------------------
    \3\ DHS Is Slow to Hire Law Enforcement Personnel, OIG-17-05 
(October 2016).
---------------------------------------------------------------------------
    As with the acquisition area, I have initiated the first in a 
series of audits to further review the Department's human capital 
strategies and management capabilities to ensure the Department can 
quickly and effectively hire a highly qualified and diverse workforce. 
Our first engagement will compile and review open-source literature, 
other Government reports, and prior work of our office to help the 
Department and its components avoid previously identified poor 
management practices and their negative impacts. Subsequent audits will 
address the collateral impact hiring 15,000 agents and officers will 
have not only on other Departmental components, but also on other 
Federal agencies.
    Likewise, as we announced in the beginning of this month, we have 
begun a review of DHS's implementation of the recent Executive Order, 
Protecting the Nation from Foreign Terrorist Entry into the United 
States. The review is being initiated in response to Congressional 
requests and whistleblower and hotline complaints. In addition to 
reviewing the implementation of the Executive Order, we will review 
DHS's adherence to court orders and allegations of individual 
misconduct on the part of DHS personnel. If circumstances warrant, we 
will consider including other issues that may arise during the course 
of the review. At the culmination of this review, we will provide a 
final report to Secretary Kelly, the Congress, and the public. We 
appreciate the cooperation we have received from the Department's 
components as we conduct this review.
                     creating a unified department
    DHS's primary challenge moving forward is transitioning from an 
organization of 22 semi-independent components, each conducting its 
affairs without regard to, and often without knowledge of, other DHS 
components' programs and operations, to a more cohesive entity focused 
on the central mission of protecting the homeland. A lack of 
coordination and unity occurs in all aspects of DHS's programs--
planning, programing, budgeting, and execution--and leads to waste and 
inefficiency.
    Our previous audit and inspection reports are replete with examples 
of the consequences of failing to act as a single entity:
  <bullet> Our 2013 audit of DHS's H-60 helicopter programs showed that 
        one component did not cooperate with another to realize 
        potential cost savings and other efficiencies. Specifically, 
        CBP was unwilling to coordinate with the Coast Guard to upgrade 
        its H-60 helicopters, even though both components were 
        converting the same helicopters. We estimated potential savings 
        of about $126 million if the two components had successfully 
        coordinated the conversion of CBP's H-60 helicopters at the 
        Coast Guard's Aviation Logistics Center. A subsequent H-60 
        Business Case Analysis by DHS's Office of Chief Readiness 
        Support Officer, the Aviation Governing Board, the Coast Guard, 
        and CBP confirmed the cost savings of having the Coast Guard 
        convert the helicopters, but it was too late.\4\
---------------------------------------------------------------------------
    \4\ DHS's H-60 Helicopter Programs (Revised), OIG-13-89 (May 2013).
---------------------------------------------------------------------------
  <bullet> DHS employs approximately 80,000 Federal law enforcement 
        officers whose positions allow for the use of force as they 
        perform their duties; however, DHS does not have an office 
        responsible for managing and overseeing component use-of-force 
        activities. We discovered that each component varies on their 
        use-of-force activities and DHS has no centralized oversight of 
        use-of-force allegations, trends, training, facilities, and 
        resource challenges faced by field personnel. We recommended 
        that DHS establish a Department-level entity to actively 
        oversee and assist with component use-of-force activities, 
        update policies, and improve training.\5\
---------------------------------------------------------------------------
    \5\ DHS Lacks Oversight of Component Use of Force, OIG-17-22 
(January 2017).
---------------------------------------------------------------------------
  <bullet> Since its formation, DHS has faced challenges in integrating 
        various component training facilities and programs, and does 
        not have adequate oversight of its workforce training. Multiple 
        prior audits have shown DHS does not have reliable training 
        cost data and information to make informed management 
        decisions. During our 2016 audit, we attempted to determine 
        total DHS training costs for fiscal years 2014 and 2015. When 
        we requested DHS training costs from the DHS Office of the 
        Chief Financial Officer (OCFO), it could not readily provide 
        the data. The OCFO did not have access to components' financial 
        systems; rather, it relied on data calls to provide the 
        training costs and could not validate the data. As a result, we 
        found significant discrepancies between the total amounts 
        reported by DHS. Although DHS has taken steps to improve the 
        reliability of its training data, further action is needed--
        thus, we recommended that the under secretary for management 
        develop and implement a process to accurately capture and 
        report training information across DHS.\6\
---------------------------------------------------------------------------
    \6\ DHS's Oversight of Its Workforce Training Needs Improvement, 
OIG-16-19 (January 2016).
---------------------------------------------------------------------------
  <bullet> In January 2016, we issued a report on human trafficking and 
        the visa process. Our audit objectives were to determine how 
        individuals charged or convicted of human trafficking used 
        legal means to bring victims to the United States, and to 
        identify data quality and exchange issues that may hinder 
        efforts to combat human trafficking. In this audit, we compared 
        databases belonging to U.S. Immigration and Customs Enforcement 
        (ICE) and to U.S. Citizenship and Immigration Services (USCIS) 
        and found that ICE and USCIS could improve data quality to 
        facilitate data matching and identification of possible 
        instances of human trafficking. For example, when ICE employees 
        identified a human trafficker, they did not always advise USCIS 
        regarding the victims they identified. In turn, in selected 
        instances where USCIS obtained traffickers' names from the 
        victims, USCIS did not have a process to routinely share this 
        information with ICE. Without concerted DHS efforts to collect 
        and share information, the risk exists that some human 
        traffickers may remain unidentified and free to abuse other 
        individuals.\7\
---------------------------------------------------------------------------
    \7\ ICE and USCIS Could Improve Data Quality and Exchange to Help 
Identify Potential Human Trafficking Cases, OIG-16-17 (January 2016).
---------------------------------------------------------------------------
  <bullet> DHS has taken steps to develop a Departmental Pandemic 
        Workforce Protection Plan (PWPP) intended to protect the 
        workforce during a pandemic event. However, DHS cannot be 
        assured that its preparedness plans can be executed effectively 
        during a pandemic event. For example, DHS did not develop clear 
        requirements for pandemic readiness training, even though the 
        DHS PWPP requires components to train and exercise staff and 
        senior leadership on pandemic readiness at least annually. The 
        Department did not provide details on applicable trainings or 
        the frequency needed to meet this requirement. As a result, 
        seven of the components reviewed did not always include the 
        necessary details in their plans on how pandemic training 
        requirements would be met.\8\
---------------------------------------------------------------------------
    \8\ DHS Pandemic Planning Needs Better Oversight, Training, and 
Execution, OIG-17-02 (October 2016).
---------------------------------------------------------------------------
    Despite these examples, DHS has made recent progress in tone and 
substance. In the last 3 years, DHS leadership has taken steps to forge 
multiple components into a single organization. New policies and 
directives have been created to ensure cohesive budget planning and 
execution, including ensuring a joint requirements process. The 
Department also has a process to identify and analyze its mission 
responsibilities and capabilities, with an eye toward understanding how 
components fit together and how each adds value to the enterprise. A 
new method for coordinating operations, the Southern Border and 
Approaches Campaign, was created to try to reduce the silos and 
redundancy.
    However, in our report issued last November describing the 
Department's major management challenges, we found that this progress 
has been a result of the force of will of a small team within the 
Department's leadership, and may not be sustainable. We warned that 
absent structural changes within the Department to ensure streamlined 
oversight, communication, responsibility, and accountability--changes 
that we believed must be enshrined in law--that this progress could be 
undone.
    Fortunately, I am gratified to report that the National Defense 
Authorization Act for fiscal year 2017 establishes within the 
Department the Office of Strategy, Policy, and Plans.\9\ This Office 
will lead, conduct, and coordinate the development of the Department's 
priority policies and will work with each component of the Department 
in establishing or modifying policies. We believe that the creation of 
this new office is an important first step toward the structural 
changes that are needed to create a unified Department.
---------------------------------------------------------------------------
    \9\ National Defense Authorization Act, Pub. L. No. 114-328,  1902 
(2017).
---------------------------------------------------------------------------
                         acquisition management
    Acquisition management, which is critical to fulfilling all DHS 
missions, is inherently complex, high-risk, and challenging. Since its 
inception in 2003, the Department has spent tens of billions of dollars 
annually on a broad range of assets and services--from ships, aircraft, 
surveillance towers, and nuclear detection equipment to IT systems for 
financial management and human resources. DHS's yearly spending on 
contractual services and supplies, along with acquisition of assets, 
exceeds $25 billion. There continue to be DHS major acquisition 
programs that cost more than expected, take longer to deploy than 
planned, or deliver less capability than promised.
    The Department was established very quickly by combining many 
legacy and new agencies, so DHS's earliest acquisition processes were 
imperfect and slow to mature. Initially, DHS operated in disparate 
silos focused on purchasing goods and services with minimal management 
of requirements. In their transition to DHS, seven agencies, including 
the U.S. Coast Guard, FEMA, and TSA retained their own procurement 
functions. The expertise and capability of the seven procurement 
offices mirrored their pre-DHS expertise and capability, with staff 
sizes ranging from 21 to 346.
    DHS has taken many steps to strengthen Department-wide acquisition 
management, such as establishing an Acquisition Life-Cycle Framework--a 
four-phase process to assure consistent and efficient acquisition 
management, support, review, and approval. The framework is designed to 
ensure that program managers have the tools, resources, and flexibility 
to execute acquisitions and deliver products that meet user 
requirements while complying with applicable statutes, regulations, and 
policies.
    The Department also created the Office of Program Accountability 
and Risk Management (PARM) in 2011. PARM oversees major acquisition 
programs and the acquisition workforce, develops program management 
policies, and collects performance data. Within PARM, the Acquisition 
Review Board determines whether components' acquisitions meet specific 
requirements at key phases throughout the acquisition process. DHS 
established a Joint Requirements Council to review high-dollar 
acquisitions and make recommendations to the Acquisition Review Board 
on cross-cutting savings opportunities.
    DHS has also increased component-level acquisition capability. For 
instance, the Department appointed component acquisition executives to 
oversee and support their respective programs; it also initiated 
monthly component acquisition executive staff forums to provide 
guidance and share best practices. DHS has continued to enhance its 
acquisition workforce by establishing centers of excellence for cost 
estimating, systems engineering, and other disciplines to promote best 
practices and provide technical guidance.
    Most of DHS's major acquisition programs continue to cost more than 
expected, take longer to deploy than planned, or deliver less 
capability than promised. Although its acquisition policy includes best 
practices, DHS sometimes approves moving forward with major acquisition 
programs without appropriate internal oversight.
  <bullet> USCIS faces continuing challenges in its efforts to automate 
        immigration benefits. After 11 years, USCIS has made little 
        progress in transforming its paper-based processes into an 
        automated immigration benefits processing environment. Past 
        automation attempts have been hampered by ineffective planning, 
        multiple changes in direction, and inconsistent stakeholder 
        involvement. USCIS deployed the Electronic Immigration System 
        (ELIS) in May 2012, but to date customers can apply on-line for 
        only 2 of about 90 types of immigration benefits and services. 
        As we reported in March 2016, the current ELIS approach does 
        not ensure stakeholder involvement, performance metrics, system 
        testing, or the user support needed for an effective system. 
        USCIS now estimates it will take 3 more years to address these 
        issues--over 4 years longer than estimated--and an additional 
        $1 billion to automate all benefit types. This delay will 
        prevent USCIS from achieving its workload processing, National 
        security, and customer service goals.\10\
---------------------------------------------------------------------------
    \10\ USCIS Automation of Immigration Benefits Processing Remains 
Ineffective, OIG-16-48 (March 2016).
---------------------------------------------------------------------------
    These failures have a real impact on our National security. Because 
        of processing errors resulting from premature release of ELIS 
        software, USCIS received over 200,000 reports from approved 
        applicants about missing green cards. The number of cards sent 
        to wrong addresses has incrementally increased since 2013 due 
        in part to complex processes for updating addresses, ELIS 
        limitations, and factors beyond the agency's control. USCIS 
        produced at least 19,000 cards that included incorrect 
        information or were issued in duplicate. Most card issuance 
        errors were due to design and functionality problems in ELIS. 
        USCIS' efforts to address the errors have been inadequate. 
        Although USCIS conducted a number of efforts to recover the 
        inappropriately-issued cards, these efforts also were not fully 
        successful and lacked consistency and a sense of urgency. 
        Errors can result in approved applicants unable to obtain 
        benefits, maintain employment, or prove lawful immigration 
        status. In the wrong hands, Green Cards may enable terrorists, 
        criminals, and illegal aliens to remain in the United States 
        and access immigrant benefits.\11\
---------------------------------------------------------------------------
    \11\ Better Safeguards are Needed in USCIS Green Card Issuance, 
OIG-17-11 (November 2016).
---------------------------------------------------------------------------
    We recently issued a Management Alert regarding additional concerns 
        with ELIS that came up during an on-going audit of USCIS' use 
        of ELIS for naturalization benefits processing. Early this year 
        we learned of an impending decision by USCIS leadership to 
        return to ELIS processing late January 2017. We are concerned 
        about the feasibility and risk of such a decision given all the 
        ELIS problems that remain unsolved. As such, we recommended 
        that USCIS ensure the four minimal requirements of the Field 
        Operations Directorate are met prior to returning to ELIS 
        processing of N-400 naturalization applications and perform a 
        risk-based analysis of all unresolved ELIS technical issues to 
        ensure that, going forward, all systems improvement decisions 
        are based on potential agency operational impact and risk to 
        public safety.\12\
---------------------------------------------------------------------------
    \12\ Management Alert--U.S. Citizenship and Immigration Services' 
Use of the Electronic Immigration System for Naturalization Benefits 
and Processing, OIG-17-26-MA (January 2017).
---------------------------------------------------------------------------
    We are pleased to report that USCIS has agreed to delay the return 
        to ELIS processing until all of the technical issues have been 
        resolved.
  <bullet> As we reported in November 2015, FEMA has taken steps to 
        improve its IT management and developed numerous IT planning 
        documents, but has not coordinated, executed, or followed 
        through on these plans. FEMA struggles to implement component-
        wide IT governance, in part because the Chief Information 
        Officer does not have sufficient control and budget authority 
        to lead the component's decentralized IT environment. As a 
        result, FEMA's IT environment has become overly complex, 
        difficult to secure, and costly to maintain. In response to one 
        of our recommendations, FEMA plans to implement and enforce a 
        standardized, component-wide process that sufficiently defines 
        and prioritizes the acquisition, development, operation, and 
        maintenance requirements for all systems by exercising 
        authorities through the IT Governance Board.\13\
---------------------------------------------------------------------------
    \13\ FEMA Faces Challenges in Managing Information Technology, OIG-
16-10 (November 2015).
---------------------------------------------------------------------------
  <bullet> In September 2014, we reported that FEMA spent about $247 
        million over 9 years to implement a Logistics Supply Chain 
        Management System that cannot interface with its partners' 
        logistics management systems or provide real-time visibility 
        over all supplies shipped. In addition, FEMA estimated that the 
        life-cycle cost of the system would be about $556 million--$231 
        million more than its original estimate. These problems were 
        largely caused by FEMA's failure to comply with the 
        Department's acquisition guidance. For instance, the program 
        office responsible for the system did not analyze alternatives 
        to determine how best to close the gap in FEMA's logistics 
        capability; did not report life-cycle cost increases to the 
        component acquisition executives and the DHS Acquisition 
        Decision Authority; and did not formally report program 
        breaches as required, which hindered oversight.\14\
---------------------------------------------------------------------------
    \14\ FEMA's Logistics Supply Chain Management System May Not Be 
Effective During a Catastrophic Disaster, OIG-14-151 (September 2014).
---------------------------------------------------------------------------
  <bullet> As this subcommittee well knows, the Department is 
        challenged in using the most efficient and effective 
        composition of its motor vehicle fleet to meet mission 
        requirements, in part due to limited DHS authority over 
        components' fleet management decisions. We conducted three 
        audits in this area. Most recently, in October 2015, we 
        reported that the Federal Protective Service (FPS), based on 
        its workforce, has too many vehicles and pays too much for its 
        vehicles. Also, FPS officers in the National Capital Region 
        used their vehicles to commute to and from home without proper 
        justification. As a result, FPS may have missed saving more 
        than $2.5 million. DHS's insufficient oversight and potential 
        cost savings were partly due to the DHS Fleet Manager not 
        having enforcement authority to influence component vehicle 
        purchases. Because components receive funding for vehicle 
        fleets in their individual operational budgets, they make 
        independent decisions about the number and type of vehicles 
        needed to support their missions.
    We appreciate this committee's support on this issue, and 
        appreciate the legislation originating out of this subcommittee 
        that will amend the Homeland Security Act of 2002 to make the 
        DHS Under Secretary for Management responsible for overseeing 
        and managing vehicle fleets throughout the Department, 
        including developing and distributing a standardized vehicle 
        allocation methodology and fleet management plan; ensuring that 
        components formally document fleet management decisions; and 
        approving component fleet management plans, vehicle leases, and 
        vehicle acquisitions.\15\
---------------------------------------------------------------------------
    \15\ The FPS Vehicle Fleet is Not Managed Effectively, OIG-16-02 
(October 2015); DHS Does Not Adequately Manage or Have Enforcement 
Authority Over Its Components' Vehicle Fleet Operations, OIG-14-126 
(August 2014); DHS Home-to-Work Transportation, OIG-14-21 (December 
2013).
---------------------------------------------------------------------------
    DHS has instituted major reforms to the acquisition process and has 
exerted significant leadership to gain control of an unruly and 
wasteful process. However, we worry that these reforms, if not 
continuously supported and enforced, could be undone. As DHS continues 
to build its acquisition management capabilities, it will need stronger 
Departmental oversight and authority, increased commitment by the 
Department and components, as well as skilled personnel to effect real 
and lasting change.
    Congress has previously introduced legislation designed to address 
DHS's acquisition challenges. We would support legislation that 
codifies existing policy and relevant offices; provides the necessary 
authority for key personnel and mechanisms within the Department to 
effectively manage major acquisition programs; reinforces the 
importance of key acquisition management practices, such as 
establishing cost, schedule, and capability parameters; and includes 
requirements to better identify and address poorly performing 
acquisition programs.
                  homeland security grants management
    FEMA administers millions of dollars in homeland security 
preparedness grants. This is money given to States and communities to 
increase their capacity to prepare for and respond to a homeland 
security disaster. However, we find that FEMA does a fairly poor job of 
ensuring that the money is not wasted. We believe that this is a result 
of a failure of leadership on the part of FEMA and structural and 
systemic issues inherent in the program.
  <bullet> Since 2001, FEMA has awarded fire departments and first 
        responder organizations almost $10 billion through the 
        Assistance to Firefighters Grant (AFG) Program and Staffing for 
        Adequate Fire and Emergency Response (SAFER) grants. In our 
        2016 audit, we reviewed whether recipients complied with grant 
        requirements and guidance to prevent waste, fraud, and abuse of 
        grant funds. We found that 64 percent (243 of 379) of AFG grant 
        recipients (grantees) we reviewed did not comply with grant 
        guidance and requirements because they did not support 
        expenditures of more than $6.3 million with adequate 
        documentation. Based on the results of our statistical sample 
        analysis, $147.2 million (13 percent) of the $1.13 billion 
        appropriated grant funds are possible questioned costs.\16\
---------------------------------------------------------------------------
    \16\ FEMA's Grant Programs Directorate Did not Effectively Manage 
Assistance to Firefighters Grant Program-AFG Grants, OIG-16-100 (June 
2016).
---------------------------------------------------------------------------
  <bullet> We also found that 63 percent (88 of 139) of SAFER grant 
        recipients (grantees) we reviewed did not comply with grant 
        guidance and requirements to prevent waste, fraud, and abuse of 
        grant funds. We found that they did not support expenditures of 
        more than $17.75 million with adequate documentation, and they 
        may have expended more than $692,000 in grant funds on 
        ineligible items and activities. SAFER grant appropriations for 
        fiscal years 2010 through 2012 totaled approximately $1.16 
        billion. We examined about $72 million in grant funds spent and 
        are questioning $18.4 million.\17\
---------------------------------------------------------------------------
    \17\ FEMA's Grant Programs Directorate Did Not Effectively Manage 
Assistance to Firefighters Grant Program--SAFER Grants, OIG-16-98 (June 
2016).
---------------------------------------------------------------------------
    As a result of Congressional mandates, we have audited a 
significant number of homeland security preparedness grants and have 
made recommendations. Unfortunately, FEMA has largely failed to take 
advantage of our recommendations in any kind of systemic or organized 
way. In an overarching audit of OIG recommendations related to 
preparedness grants, we reported that FEMA had not adequately analyzed 
recurring recommendations to implement changes to improve its oversight 
of these grants. Specifically, of the 58 homeland security grant audits 
we looked at, which contained 490 recommendations, we found that 91 
percent identified challenges that were present year after year. In 
other words, we would identify an issue with one State's grant and make 
recommendations, but FEMA would not make systemic changes to ensure 
that the same issue was not repeated in other State grants. Simply put, 
when it comes to administration of homeland security grants, FEMA is 
not a learning organization and is content to make the same mistakes 
over and over again.\18\
---------------------------------------------------------------------------
    \18\ Analysis of Recurring Audit Recommendations Could Improve 
FEMA's Oversight of HSGP, OIG-16-49 (March 2016).
---------------------------------------------------------------------------
    Based on our recurring audit findings, it is critically important 
that FEMA officials examine regulations, policies, and procedures and 
assess the need for more robust changes throughout all grant programs. 
FEMA should refocus its efforts to identify systemic issues and develop 
solutions to address the cause and not just the symptoms. FEMA needs to 
improve its oversight of State grantees and proactively engage with 
States to improve management and guidance of subgrantees.
                        management fundamentals
    Although neither exciting nor publicly lauded, the basics of 
management are the lifeblood of informed decision making and successful 
mission performance. Management fundamentals include having accurate, 
complete information on operations and their cost; meaningful 
performance metrics on programs and goals; and appropriate internal 
controls. The Department has made strides in establishing its 
management fundamentals, including obtaining an unmodified opinion on 
its financial statements for the last 3 years. However, DHS still 
cannot obtain such an opinion on its internal controls over financial 
reporting. In plain terms, this means the Department can assemble 
reasonably accurate financial statements at the end of the fiscal year, 
but it has no assurance that its financial information is accurate and 
up-to-date throughout the year. DHS has also instituted many positive 
steps such as over-arching acquisition policies and other meaningful 
acquisition reforms, but the value of these steps is undermined by the 
lack of discipline in management fundamentals.
    We have summarized the on-going challenges the Department faces 
into three main categories, but caution that these challenges are both 
interrelated and cumulative:
Collecting the Right Data
    The Department does not prioritize collection of data in its 
program planning, does not always gather enough data, and does not 
validate the data it receives to ensure it is accurate and complete. 
The lack of reliable and complete data permeates through the entire 
Department and its components and is often accompanied by too little 
management oversight and weak internal controls. DHS leadership does 
not always assert its authority over the components to ensure it gets 
the data it needs when it needs it. As a result, DHS and the components 
often struggle making good decisions on acquisitions (what is needed 
and how much is needed) and correctly deploying resources (people, as 
well as acquired goods and services). Further, DHS does not have the 
data required to measure performance and use the feedback to adjust and 
improve programs and operations. We have identified numerous examples 
of this issue, including DHS's lack of accurate and complete inventory 
data for equipment, which hindered the provision of needed 
interoperable radio equipment, and incomplete inventory data on 
warehouse space, which led to wasted resources.\19\ Simply put, without 
the foundation of solid data, DHS cannot be certain it will achieve its 
mission and spend taxpayer dollars wisely and efficiently.
---------------------------------------------------------------------------
    \19\ Reporting and Oversight Needed to Help Manage DHS's Warehouse 
Portfolio, OIG-15-138 (August 2015).
---------------------------------------------------------------------------
Collecting and Analyzing Cost Data
    The Department, like most Federal Government agencies, does not put 
sufficient emphasis on collecting cost data for operations and 
programs. Successful businesses unfailingly track cost data because the 
cost of their operations or products directly impacts their bottom line 
revenue. Government does not have that bottom-line drive for cost 
information; yet, all Government programs rely on informed decision 
making to optimize performance. Without cost information, DHS cannot 
conduct a reliable cost-benefit analysis of proposed program or policy 
changes or new initiatives. Because it does not fully understand the 
costs of its program choices, the Department is not equipped to analyze 
its risk decisions. The lack of information on program costs also 
limits basic investment decisions among competing programs. Our fiscal 
year audit of CBP's unmanned aircraft system program highlighted CBP's 
failure to capture complete cost data for the program. CBP did not 
include all the actual operating costs because some costs were paid 
from a different budget line item or program. We determined that CBP 
was dramatically underestimating the cost of the program at the same 
time it was considering expanding the program.\20\ Program decisions 
based on inaccurate or incomplete cost analysis can lead to program 
failure, poor performance, or significant delays. Since we issued our 
audit report, DHS has made substantial progress toward developing a 
common flying hour program.
---------------------------------------------------------------------------
    \20\ U.S. Customs and Border Protection's Unmanned Aircraft System 
Program Does Not Achieve Intended Results or Recognize All Costs of 
Operations, OIG-15-17 (December 2014).
---------------------------------------------------------------------------
Performance Measurement
    DHS does not routinely establish meaningful performance measures 
for many of its on-going initiatives and programs. Multiple audit and 
inspection reports identify deficiencies in or the absence of DHS 
performance measures. Our audits have identified costly programs that 
DHS has not measured for effectiveness. Therefore, we do not know 
whether the investment of taxpayer resources is a good one. For 
example:
  <bullet> TSA has continued to invest in its Screening of Passengers 
        by Observation Techniques program without valid performance 
        metrics to evaluate whether the investment is yielding 
        appropriate results. In fact, 3 years after our initial audit, 
        we found that TSA still is unable to determine its 
        effectiveness.\21\
---------------------------------------------------------------------------
    \21\ Verification Review of Transportation Security 
Administration's Screening of Passengers by Observation Techniques/
Behavior Detection and Analysis Program, OIG-16-111-VR (July 2016).
---------------------------------------------------------------------------
  <bullet> CBP's Streamline, an initiative to criminally prosecute 
        individuals who illegally enter the United States, had flawed 
        measures of effectiveness and did not capture an accurate 
        picture of the alien's crossing history, re-entry, or re-
        apprehension over multiple years. As a result, CBP did not have 
        good information to make management decisions about widening, 
        maintaining, or constricting Streamline's parameters.\22\
---------------------------------------------------------------------------
    \22\ Streamline: Measuring Its Effect on Illegal Border Crossing, 
OIG-15-95 (May 2015).
---------------------------------------------------------------------------
  <bullet> One of the Department's critical functions is to protect the 
        Nation by interdicting illicit drugs headed for the United 
        States through air, land, or maritime borders; however, the 
        Department's drug interdiction performance measures did not 
        effectively assess the impact of its drug interdiction efforts. 
        We found that the measures were not outcome-based or did not 
        assess activities directly related to combating drug smuggling 
        organizations. In one instance, the measure could be expanded 
        to more accurately assess component drug interdiction activity 
        effects toward dismantling transnational criminal 
        organizations. This occurred because the Department did not 
        establish minimum standards for components to use in developing 
        effective performance measures. The Department instead relied 
        on components to develop and implement performance measures to 
        satisfy the Office of National Drug Control Policy priorities. 
        As a result, DHS could not measure whether its drug 
        interdiction efforts effectively support required National drug 
        control outcomes.\23\
---------------------------------------------------------------------------
    \23\ DHS Drug Interdiction Effects Need Improvement, OIG-17-09 
(November 2016).
---------------------------------------------------------------------------
    Reliable and relevant feedback on program performance is critical 
to ensuring the Department does not invest its resources on 
unproductive, inefficient, or ineffective programs and initiatives.
    These critical business fundamentals, unglamorous as they may be, 
are part of any mature and functioning Government enterprise. The key 
to a more effective and efficient DHS is to focus on these basic 
Government business practices. DHS achieved its unmodified opinion on 
the financial statements through concentrated hard work and attention 
to detail at every level of the Department. Similar emphasis must be 
placed on mastering the fundamentals of business management before the 
Department can fully mature as a world class organization.
    Mr. Chairman, this concludes my testimony. I am happy to answer any 
questions you or other Members of the committee may have.

    Mr. Perry. Thank you, Mr. Roth.
    The Chair recognizes Ms. Gambler for her opening statement.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairman, Ranking Member, 
Members of the subcommittee. I appreciate the opportunity to 
testify at today's hearing to discuss GAO's work on DHS's 
efforts to strengthen and integrate its management function.
    Since 2003 GAO has issued hundreds of reports addressing 
the range of DHS's mission and management functions and we have 
made about 2,500 recommendations to strengthen the Department's 
management and performance measurement, among other things. DHS 
has implemented more than 70 percent of these recommendations 
and has actions under way to address others.
    GAO also regularly reports to Congress on Government 
operations that we have identified as high-risk because of 
their greater vulnerability to fraud, waste, abuse, and 
mismanagement, or the need for transformation. In 2003 we 
designated implementing and transforming DHS as high-risk 
because DHS had to transform 22 agencies into one Department 
and the failure to address associated risks could have serious 
consequences for U.S. National and economic security. With 
DHS's maturation and evolution we have narrowed the scope of 
the high-risk area to focus on strengthening DHS's management 
functions, which include human capital, information and 
Technology, acquisition, and financial management.
    My remarks today will focus on two areas: First, DHS's 
progress and remaining actions to strengthen its management 
functions; and second, cross-cutting issues or themes that have 
affected DHS's efforts to implement its missions.
    First, DHS has made progress in meeting GAO's five criteria 
for removal from the high-risk list. Specifically, agencies 
must have: No. 1, strong commitment and top leadership support; 
No. 2, an action plan; No. 3, the capacity, which includes the 
people and other resources, to address the risks; No. 4, a 
program for monitoring progress; and No. 5, demonstrated 
progress in implementing corrective actions.
    In our 2017 high-risk update, which we issued yesterday, we 
found that DHS has met three of our criteria: Demonstrating 
leadership commitment, and having a corrective action plan, and 
a framework for monitoring progress. DHS has partially met the 
other two criteria.
    To help the Department in addressing our high-risk criteria 
GAO and DHS have agreed to 30 outcomes across DHS's management 
functions. DHS has fully or mostly addressed 21 of these 
outcomes and has partially addressed or initiated activities 
relative to the others.
    For example, within acquisition management the Department 
has made progress in validating required acquisition documents 
for its major programs, but more work is needed to demonstrate 
that major programs are on track to achieve cost, schedule, and 
capability goals. Further, within human capital management DHS 
has developed and made progress on implementing a strategic 
human capital plan; however, DHS has considerable work ahead to 
improve employee morale.
    Second, we have identified various themes that have 
impacted DHS's progress in implementing its mission functions. 
These themes include leading and coordinating the homeland 
security enterprise, and strategically managing risks and 
assessing homeland security efforts.
    While DHS has made important progress in addressing these 
themes, they continue to affect the Department's implementation 
efforts. For example, while DHS has made important strides in 
coordinating efforts with homeland security partners in various 
mission areas, our work has shown that DHS could further 
improve its coordination and outreach in such areas as facility 
security and critical infrastructure.
    Further, DHS and its components have strengthened their 
risk and performance assessments of various programs and 
initiatives. However, opportunities exist for the Department 
and its components to improve their risk and performance 
assessment efforts in such areas as the adjudication of 
immigration benefits.
    As I close I think it is important to note that DHS has 
made progress in addressing those issues that contribute to its 
designation as high-risk. While this progress has been 
positive, DHS needs to continue to demonstrate measurable and 
sustainable progress in implementing corrective actions and 
achieving those outcomes we and the Department have identified. 
Efforts by the Department and Congress--through proposed 
legislation and continued oversight, for example--are important 
to helping ensure that the Department has the people, 
processes, and systems in place to strengthen management 
functions and address remaining challenges.
    GAO will also continue to work constructively with the 
Department. For example, senior GAO and DHS officials have met 
routinely over the past several years to discuss the 
Department's plans and progress in addressing this high-risk 
area, and we plan to continue these efforts.
    This concludes my oral statement, and I am happy to answer 
any questions Members have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                           February 16, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee: Thank you for the opportunity to discuss the Department 
of Homeland Security's (DHS) on-going efforts to strengthen and 
integrate its management functions. In the 14 years since the 
Department's creation, DHS has implemented key homeland security 
operations, achieved important goals and milestones, and grown to more 
than 240,000 employees and approximately $67 billion in budget 
authority. We have issued hundreds of reports addressing the range of 
DHS's missions and management functions, and our work has identified 
gaps and weaknesses in the Department's operational and implementation 
efforts, as well as opportunities to strengthen their efficiency and 
effectiveness. Since 2003, we have made approximately 2,500 
recommendations to DHS to strengthen program management, performance 
measurement efforts, and management processes, among other things. DHS 
has implemented more than 70 percent of these recommendations and has 
actions under way to address others.
    We also report regularly to Congress on Government operations that 
we identified as high-risk because of their increased vulnerability to 
fraud, waste, abuse, and mismanagement, or the need for transformation 
to address economy, efficiency, or effectiveness challenges. In 2003, 
we designated Implementing and Transforming DHS as high-risk because 
DHS had to transform 22 agencies--several with major management 
challenges--into one department, and failure to address associated 
risks could have serious consequences for U.S. National and economic 
security.\1\ Given the significant effort required to build and 
integrate a department as large and complex as DHS, our initial high-
risk designation addressed the Department's initial transformation and 
subsequent implementation efforts, to include associated management and 
programmatic challenges.\2\
---------------------------------------------------------------------------
    \1\ GAO, High-Risk Series: An Update, GAO-03-119 (Washington, DC: 
January 2003).
    \2\ DHS also has responsibility for other areas we have designated 
as high-risk. Specifically, in 2005, we designated establishing 
effective mechanisms for sharing and managing terrorism-related 
information to protect the homeland as high-risk, involving a number of 
Federal departments, to include DHS. In our 2017 update, we removed 
this area from the High-Risk List because the Program Manager for the 
Information Sharing Environment and key departments and agencies, such 
as DHS, made significant progress to strengthen how intelligence on 
terrorism, homeland security, and law enforcement, as well as other 
information, is shared among Federal, State, local, Tribal, 
international, and private-sector partners. In 2006, we identified the 
National Flood Insurance Program as high-risk. Further, in 2003, we 
expanded the scope of the high-risk area involving Federal information 
security, which was initially designated as high-risk in 1997, to 
include the protection of the Nation's computer-reliant critical 
infrastructure. See GAO, High-Risk Series: Progress on Many High-Risk 
Areas, While Substantial Efforts Needed on Others, GAO-17-317 
(Washington, DC: February 2017); High-Risk Series: An Update, GAO-09-
271 (Washington, DC: January 2009); High-Risk Series: An Update, GAO-
07-310 (Washington, DC: January 2007); and High-Risk Series: An Update, 
GAO-05-207 (Washington, DC: January 2005).
---------------------------------------------------------------------------
    Since 2003, the focus of the Implementing and Transforming DHS 
high-risk area has evolved in tandem with DHS's maturation and 
evolution. In September 2011, we reported in our assessment of DHS's 
progress and challenges 10 years after the terrorist attacks of 
September 11, 2001, that the Department had implemented key homeland 
security operations and achieved important goals in many areas to 
create and strengthen a foundation to reach its potential.\3\ However, 
we also reported that continuing weaknesses in DHS's management 
functions had been a key theme impacting the Department's 
implementation efforts. While challenges remain for DHS across its 
range of missions, the Department has made considerable progress in 
transforming its original component agencies into a single Cabinet-
level department and positioning itself to achieve its full potential. 
As a result, in our 2013 high-risk update, we narrowed the scope of the 
high-risk area to focus on strengthening DHS management functions 
(human capital, acquisition, financial management, and information 
technology [IT]), and changed the name from Implementing and 
Transforming DHS to Strengthening DHS Management Functions to reflect 
this focus.\4\ Finally, in our 2015 high-risk update, we found that 
DHS's top leadership had continued to demonstrate exemplary commitment 
to and support for addressing the Department's management challenges 
and that DHS had made important progress in strengthening its 
management functions. However, we also found in our 2015 update that 
DHS continued to face significant management challenges that hindered 
its ability to achieve its missions and concluded that DHS needed to 
continue to demonstrate sustainable, measurable progress in addressing 
key challenges that remained within and across its management 
functions.\5\
---------------------------------------------------------------------------
    \3\ GAO, Department of Homeland Security: Progress Made and Work 
Remaining in Implementing Homeland Security Missions 10 Years after 9/
11, GAO-11-881 (Washington, DC: Sept. 7, 2011).
    \4\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, DC: 
February 2013).
    \5\ GAO, High-Risk Series: An Update, GAO-15-290 (Washington, DC: 
February 2015).
---------------------------------------------------------------------------
    In November 2000, we published our criteria for removing areas from 
the High-Risk List.\6\
---------------------------------------------------------------------------
    \6\ GAO, Determining Performance and Accountability Challenges and 
High Risks, GAO-01-159SP (Washington, DC: November 2000).
---------------------------------------------------------------------------
    Specifically, agencies must have: (1) A demonstrated strong 
commitment and top leadership support to address the risks; (2) the 
capacity (that is, the people and other resources) to resolve the 
risks; (3) a corrective action plan that identifies the root causes, 
identifies effective solutions, and provides for substantially 
completing corrective measures in the near term, including but not 
limited to steps necessary to implement solutions we recommended; (4) a 
program instituted to monitor and independently validate the 
effectiveness and sustainability of corrective measures; and (5) the 
ability to demonstrate progress in implementing corrective measures.
    In a September 2010 letter to DHS, we identified and DHS agreed to 
achieve 31 outcomes that are critical to addressing challenges within 
the Department's management areas and in integrating those functions 
across the Department. In March 2014, we updated these outcomes in 
collaboration with DHS to reduce overlap and ensure their continued 
relevance and appropriateness. These updates resulted in a reduction 
from 31 to 30 total outcomes. The 30 key outcomes include, among 
others, validating required acquisition documents in accordance with a 
Department-approved, knowledge-based acquisition process; and 
sustaining clean audit opinions for at least 2 consecutive years on 
Department-wide financial statements and internal controls over 
financial reporting. Achieving sustained progress across the outcomes 
requires leadership commitment, effective corrective action planning, 
adequate capacity, and monitoring the effectiveness and sustainability 
of supporting initiatives.
    My statement discusses: (1) DHS's progress and actions remaining in 
strengthening and integrating its management functions, and (2) cross-
cutting issues that have affected DHS's progress in implementing its 
mission functions.
    This statement is based on GAO's 2017 high-risk update report as 
well as reports and testimonies we issued from September 2011 through 
mid-February 2017.\7\ For these products, among other things, we 
analyzed DHS strategies and other documents related to the Department's 
efforts to address its high-risk areas, including analysis from our 
past reports issued since DHS began its operations in March 2003, and 
interviewed DHS officials. More detailed information on the scope and 
methodology of our prior work can be found within each specific report. 
We conducted the work on which this statement is based in accordance 
with generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \7\ GAO-17-317. See also the related GAO products list at the end 
of this statement.
---------------------------------------------------------------------------
    dhs has made important progress in strengthening its management 
                functions, but considerable work remains
DHS Progress in Meeting Criteria for Removal from the High-Risk List
    DHS's efforts to strengthen and integrate its management functions 
have resulted in progress addressing our criteria for removal from the 
High-Risk List. In particular, in our 2017 high-risk report, which we 
released yesterday, we found that DHS's continued efforts to strengthen 
and integrate its acquisition, IT, financial, and human capital 
management functions have resulted in the Department meeting three 
criteria for removal from the High-Risk List (leadership commitment, a 
corrective action plan, and a framework to monitor progress) and 
partially meeting the remaining two criteria (capacity and 
demonstrated, sustained progress), as shown in Table 1.

   TABLE 1.--ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS IN ADDRESSING THE STRENGTHENING DHS
                            MANAGEMENT FUNCTIONS HIGH-RISK AREA, AS OF FEBRUARY 2017
----------------------------------------------------------------------------------------------------------------
          Criterion for Removal From High-Risk List                  Met*       Partially Met**     Not Met***
----------------------------------------------------------------------------------------------------------------
Leadership commitment........................................               X   ...............  ...............
Capacity.....................................................  ...............               X   ...............
Action plan..................................................               X   ...............  ...............
Framework to monitor progress................................               X   ...............  ...............
Demonstrated, sustained progress.............................  ...............               X   ...............
                                                              --------------------------------------------------
      Total..................................................               3                2                0
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO reports. GAO-17-409T.
* ``Met'': There are no significant actions that need to be taken to further address this criterion.
** ``Partially met'': Some but not all actions necessary to generally meet the criterion have been taken.
*** ``Not met'': Few, if any, actions toward meeting the criterion have been taken.

    In our 2017 high-risk report, we found that DHS's top leadership, 
including the Secretary and Deputy Secretary of Homeland Security, 
demonstrated exemplary commitment and support for addressing the 
Department's management challenges. DHS established a framework for 
monitoring its progress in its Integrated Strategy for High-Risk 
Management, in which it has included performance measures to track the 
implementation of key management initiatives since June 2012. In 
addition, we found that since our 2015 high-risk update, DHS has 
strengthened its monitoring efforts for financial system modernization 
programs that are key to effectively supporting the Department's 
financial management operations, resulting in DHS meeting the 
monitoring criteria for the first time. We also found that DHS has 
updated its Integrated Strategy for High-Risk Management, demonstrating 
a continued focus on addressing this high-risk designation, and made 
important progress in identifying and putting in place the people and 
resources needed to resolve Departmental management risks.
    Congress also has taken a number of actions to support and oversee 
DHS's progress in strengthening its management functions. For example, 
the National Defense Authorization Act for Fiscal Year 2017 includes a 
mandate that the DHS Under Secretary for Management report to us every 
6 months to demonstrate measurable, sustainable progress made in 
implementing DHS's corrective action plans to address the Strengthening 
DHS Management Functions high-risk area until we submit written 
notification of the area's removal from the High-Risk List to the 
appropriate Congressional committees.\8\ Similar provisions were 
included in the DHS Headquarters Reform and Improvement Act of 2015,\9\ 
the DHS Accountability Act of 2016,\10\ and the DHS Reform and 
Improvement Act.\11\
---------------------------------------------------------------------------
    \8\ Pub. L. No. 114-328, Sec. 1903(b) (codified at 6 U.S.C. 
Sec. 341(a)(11)).
    \9\ H.R. 3572, 114th Cong. (as passed by House, Oct. 20, 2015).
    \10\ S. 2976, 114th Cong. Sec. 101(b) (as reported by S. Comm. on 
Homeland Sec. and Gov'tal Affairs, June 28, 2016).
    \11\ H.R. 6381, 114th Cong. (2016).
---------------------------------------------------------------------------
    Below we provide more detailed information on DHS's progress in 
meeting criteria for removal from the High-Risk List.
    Leadership commitment (met).--We found in our 2017 high-risk report 
that the Secretary and Deputy Secretary of Homeland Security, the DHS 
Under Secretary for Management, and other senior DHS officials 
demonstrated exemplary commitment and top leadership support for 
addressing the Department's management challenges. We also found that 
they took actions to institutionalize this commitment to help ensure 
the long-term success of the Department's efforts. For example, the 
Secretary of Homeland Security's Unity of Effort initiative helped to 
strengthen the integration of DHS's business operations across the 
Department by, for example, finalizing a management directive in June 
2015 that formally establishes multiple senior leader forums for on-
going review of Departmental initiatives.\12\ The Secretary's Unity of 
Effort initiative also established enhancements to DHS's budgeting 
process by creating a new approach to mission-focused, cross-DHS budget 
development and assessment. Senior DHS officials have also routinely 
met with us over the past 8 years to discuss the Department's plans and 
progress in addressing this high-risk area. During this time, we 
provided specific feedback on the Department's efforts. According to 
DHS officials, and as demonstrated through their progress, the 
Department continues to be committed to demonstrating measurable, 
sustained progress in addressing this high-risk area. For example, 
during monthly leadership meetings with the Under Secretary for 
Management, the Department's Chief Executive Officers for each 
management area provide status updates on their respective business 
function's efforts to achieve progress on outstanding actions that are 
to be accomplished related to the high-risk area. According to DHS 
officials, these meetings provide an opportunity to maintain leadership 
support and accountability for making progress toward resolving 
management challenges facing the Department. We concluded in our 2017 
high-risk report that it will be important for DHS to maintain its 
current level of top leadership support and commitment to ensure 
continued progress in successfully completing its corrective actions.
---------------------------------------------------------------------------
    \12\ DHS, Secretary of Homeland Security, Strengthening 
Departmental Unity of Effort, Memorandum for DHS Leadership 
(Washington, DC: Apr. 22, 2014). This memorandum committed to, among 
other things, improving DHS's planning, programming, budgeting, and 
execution processes through strengthened Departmental structures and 
increased capability. DHS, Strengthening Departmental Unity of Effort, 
Management Directive 071-01 (Washington, DC: June 30, 2015).
---------------------------------------------------------------------------
    Capacity (partially met). In our 2017 high-risk report, we found 
that DHS has taken important actions to identify and put in place the 
people and resources needed to resolve Departmental management risks; 
however, DHS needs to make additional progress identifying and 
allocating resources in certain areas to sufficiently demonstrate that 
it has the capacity to achieve and sustain corrective actions and 
outcomes. Toward achieving the 30 outcomes we identified and DHS agreed 
were needed to address the high-risk area, DHS has issued 10 updated 
versions of its initial January 2011 Integrated Strategy for High-Risk 
Management, most recently in August 2016.
    Prior to the January 2016 Integrated Strategy for High-Risk 
Management, DHS did not identify sufficient resources in a number of 
areas, which could undermine DHS's efforts to strengthen its management 
functions. For example, in June 2015, DHS identified that it had 
resources and personnel needed to implement 8 of the 11 key management 
initiatives it was undertaking to achieve the 30 outcomes, but did not 
identify sufficient resources for the 3 remaining initiatives. In 
addition, our prior work has identified specific capacity gaps that 
could undermine achievement of management outcomes.
    In contrast, DHS's January and August 2016 updated versions of its 
strategy stated that it had addressed previously identified capacity 
shortfalls in areas such as IT human capital management and acquisition 
management, it had sufficient resources to achieve all 30 outcomes, and 
it had self-assessed the capacity criterion as fully met. In its August 
2016 updated version of its strategy, DHS also provided illustrative 
examples of actions it had taken within and across its management areas 
to demonstrate the Department's ability to resolve potential risks to 
achieving the 30 outcomes, such as establishing a permanent office for 
the Unity of Effort Integration within the Office of Policy to oversee 
Unity of Effort implementation.
    However, we found in our 2017 high-risk report that DHS needs to 
make additional progress identifying and allocating resources in 
certain areas.
  <bullet> Acquisition Management.--With respect to acquisition, DHS's 
        2016 staffing assessments focused on identifying critical 
        acquisition-related position gaps rather than all major program 
        acquisition-related positions; consequently, some programs were 
        assessed as being fully or almost fully staffed for critical 
        positions despite significant staffing shortfalls in the 
        overall program. We concluded that this increased focus on 
        critical gaps may limit DHS's insight into the size and nature 
        of acquisition-related staffing shortfalls, making it difficult 
        for DHS to develop a plan or process to address these 
        vacancies. In December 2016, DHS updated its staffing 
        assessment guidance to re-focus the assessment process on all 
        major program acquisition-related positions. However, DHS plans 
        to pilot the implementation of this policy update incrementally 
        during 2017 and the timing of full implementation is not yet 
        known.
  <bullet> IT management.--DHS's fiscal year 2015-2018 IT Strategic 
        Plan introduced the department's plan to shift the IT paradigm 
        from acquiring assets to acquiring services and acting as a 
        service broker. The Department's August 2016 updated version of 
        its strategy reported that this shift is a mechanism for 
        building capacity to resolve risk. However, while DHS issued a 
        workforce planning contract in July 2016 to help DHS 
        headquarters transition to the skillsets needed to accommodate 
        the service broker model, Department officials stated that they 
        have not yet defined what those skill sets are or analyzed the 
        skills gaps resulting from the paradigm shift. Because DHS has 
        yet to comprehensively assess IT human capital gaps within 
        headquarters, it remains unclear whether DHS has the capacity 
        to support this paradigm shift.
  <bullet> Financial Management.--Additionally, although DHS continues 
        to make progress toward modernizing its financial management 
        systems, critical information needed to determine the resources 
        required for two of three key modernization projects is not 
        available as the projects are not yet to a point where DHS can 
        determine what resources are required. We reported that the 
        discovery phase of these projects provides essential 
        information for determining the implementation schedule and 
        finalizing cost estimates that are needed prior to approving 
        the projects for implementation; however, this phase is not 
        expected to be completed for DHS's Federal Emergency Management 
        Agency (FEMA) and U.S. Immigration and Customs Enforcement 
        modernization projects until April 2017.\13\
---------------------------------------------------------------------------
    \13\ The discovery phase includes an in-depth analysis of the 
requirements and capabilities of the new system, also known as a gap 
analysis, and is also performed to determine the feasibility of 
implementing, deploying, and maintaining financial management services 
for the chosen solution.
---------------------------------------------------------------------------
    In our 2017 high-risk report we found that DHS has taken actions to 
address some of its previous capacity shortcomings and ensure that the 
Department has the people and resources necessary to resolve risk. 
However, we also found that additional progress is needed to ensure 
that DHS has sufficient capacity not only to resolve risks, but to 
fully achieve and sustain the 30 outcomes. As a result, we assessed DHS 
as having partially met the capacity criterion. We concluded that DHS 
needs to continue to comprehensively identify the people and resources 
necessary to make progress toward achieving all 30 outcomes; work to 
mitigate shortfalls and prioritize initiatives, as needed; and 
communicate to senior leadership about critical resource gaps requiring 
resolution.
    Action plan (met).--In our 2017 high-risk report, we found that DHS 
previously established a plan for addressing this high-risk area as 
discussed above, and has continued to take critical, actionable steps 
toward addressing challenges faced within the Department. As with prior 
iterations, DHS included in its most recent August 2016 version of its 
Integrated Strategy for High-Risk Management key management initiatives 
and related corrective actions for addressing each of the management 
challenges and related outcomes we identified. For example, the August 
2016 updated version of its strategy includes information on actions 
DHS is taking for an initiative focused on financial systems 
modernization and an initiative focused on IT human capital management, 
which support various outcomes. We concluded that DHS's strategy and 
approach, if effectively implemented and sustained, provides a path for 
DHS to be removed from our High-Risk List.
    Monitoring (met).--We found in our 2017 high-risk report that DHS 
has met the monitor progress criterion as a result of steps the 
Department has taken since our 2015 high-risk update to strengthen its 
monitoring of key financial system modernization programs. DHS 
established a framework for monitoring its progress in implementing key 
management initiatives in the Integrated Strategy for High-Risk 
Management. In the June 2012 updated version of its strategy, DHS 
included, for the first time, performance measures to track its 
progress in implementing all of its key management initiatives. DHS 
continued to include performance measures in its August 2016 updated 
version of its strategy. For example, to monitor progress made toward 
strengthening the DHS acquisition process by improving the acquisition 
workforce, DHS management continues to monitor the percent of its nine 
acquisition certification policies completed--policies related to 
program management, cost estimating, and contracting among others--and 
the percent of required acquisition certification training developed.
    However, in our 2015 high-risk update, we found that DHS could 
strengthen its financial management monitoring efforts and thus 
concluded that the Department had partially met the criterion for 
establishing a framework to monitor progress. In particular, according 
to DHS officials, as of November 2014, the Department was establishing 
a monitoring program that would include assessing whether the projects 
modernizing key components of their financial management systems were 
following industry best practices and meeting users' needs. In 2015, we 
concluded that effectively implementing these modernization projects is 
important because until they are complete, the Department's systems 
will not effectively support financial management operations. Following 
the 2015 high-risk update, DHS entered into a contract for independent 
verification and validation services that should help ensure that 
financial management systems modernization projects meet key 
requirements. We concluded in our 2017 high-risk report that moving 
forward, DHS will need to continue to closely track and independently 
validate the effectiveness and sustainability of its corrective actions 
and make mid-course adjustments, as needed.
    Demonstrated progress (partially met).--In our 2017 high-risk 
report, we found that DHS has continued to make important progress in 
strengthening its management functions, but needs to demonstrate 
additional sustainable and measurable progress in addressing key 
challenges that remain within and across these functions. For example, 
DHS established the Joint Requirements Council, an acquisition 
oversight body, through which it has created a process for validating 
capability and requirements documents, among other things. DHS has also 
worked to improve the management and oversight of its IT investments by 
establishing and implementing a tiered governance and portfolio 
management structure. In addition, DHS obtained a clean audit opinion 
on its financial statements for 4 consecutive fiscal years--2013, 2014, 
2015, and 2016.
    However, in our 2017 high-risk report we found that considerable 
work remains as DHS continues to face significant management challenges 
in key areas that hinder the Department's ability to meet its missions. 
For example, we found that while DHS has initiated acquisition program 
health assessments to demonstrate that major acquisition programs are 
on track to achieve their cost, schedule, and capability goals, it will 
take time to demonstrate that these initiatives will improve program 
performance. In addition, DHS does not have modernized financial 
management systems, which affects its ability to have ready access to 
reliable information for informed decision making. It is important that 
DHS retain and attract the talent required to complete its work--a 
challenge the Department continues to face due to employee morale 
issues. As a result, we concluded that addressing these and other 
management challenges will be a significant undertaking, but will be 
critical to mitigate the risks that management weaknesses pose to 
mission accomplishment.
    In the coming years, DHS needs to continue implementing its 
Integrated Strategy for High-Risk Management and maintain engagement 
with us to show measurable, sustainable progress in implementing 
corrective actions and achieving outcomes. In doing so, it will be 
important for DHS to:
  <bullet> maintain its current level of top leadership support and 
        sustained commitment to ensure continued progress in executing 
        its corrective actions through completion;
  <bullet> continue to identify the people and resources necessary to 
        make progress toward achieving outcomes, work to mitigate 
        shortfalls and prioritize initiatives, as needed, and 
        communicate to senior leadership critical resource gaps;
  <bullet> continue to implement its plan for addressing this high-risk 
        area and periodically provide assessments of its progress to us 
        and Congress;
  <bullet> closely track and independently validate the effectiveness 
        and sustainability of its corrective actions and make mid-
        course adjustments, as needed; and
  <bullet> make continued progress in achieving the 17 outcomes it has 
        not fully addressed and demonstrate that systems, personnel, 
        and policies are in place to ensure that progress can be 
        sustained over time.
    We will continue to monitor DHS's efforts in this high-risk area to 
determine if the outcomes are achieved and sustained over the long 
term.
DHS Progress in Achieving Key High-Risk Outcomes
    As previously discussed, key to addressing the Department's 
management challenges is DHS demonstrating the ability to achieve 
sustained progress across the 30 outcomes we identified and DHS agreed 
were needed to address the high-risk area. In our 2017 high-risk 
report, we found that DHS has fully addressed 13 of these outcomes, 
mostly addressed 8, partially addressed 6, and initiated the remaining 
3. Addressing some of these outcomes, such as those pertaining to 
improving employee morale and modernizing the Department's financial 
management systems, are significant undertakings that will likely 
require multi-year efforts. Table 2 summarizes DHS's progress in 
addressing the 30 key outcomes and is followed by selected examples, 
including recommendations that DHS should implement to strengthen its 
management functions.

GAO ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS IN ADDRESSING KEY OUTCOMES, AS OF FEBRUARY 2017
----------------------------------------------------------------------------------------------------------------
                                                    Fully       Mostly      Partially
            Key management  function             addressed*  addressed**  addressed***  Initiated****    Total
----------------------------------------------------------------------------------------------------------------
Acquisition  management........................           2           2             1   .............          5
Information  technology management.............           3           3   ............  .............          6
Financial  management..........................           2  ...........            3             3            8
Human capital  management......................           3           3             1   .............          7
Management  integration........................           3  ...........            1   .............          4
                                                ----------------------------------------------------------------
      Total....................................          13           8             6             3           30
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO reports. GAO-17-409T.
* ``Fully addressed'': Outcome is fully addressed.
** ``Mostly addressed'': Progress is significant and a small amount of work remains.
*** ``Partially addressed'': Progress is measurable, but significant work remains.
**** ``Initiated'': Activities have been initiated to address the outcome, but it is too early to report
  progress.

    Acquisition Management.--In our 2017 high-risk report we found that 
DHS has fully addressed two of the five acquisition management 
outcomes, mostly addressed two outcomes, and partially addressed the 
remaining outcome. For example, we reported that DHS has validated the 
required acquisition documentation for all of its major acquisition 
programs, and plans to continue to ensure that all major acquisition 
programs have approved acquisition program baselines and to use a pre-
Acquisition Review Board checklist to confirm that programs have all 
required documentation for Acquisition Decision Events. In addition, 
DHS has taken a number of recent actions to establish and operate the 
Joint Requirements Council. These actions include: (1) Establishing a 
process for validating capability and requirements documents, and (2) 
piloting a joint assessment of requirements process that is intended to 
eventually inform the Department's budget decisions. We also found that 
DHS continues to assess and address whether appropriate numbers of 
trained acquisition personnel are in place at the Department and 
component levels.
    Further, we reported in March 2016 that 11 of the 25 major DHS 
acquisition programs we reviewed remained on track to meet their 
current schedule and cost goals, while 8 experienced schedule slips, 
cost growth, or both.\14\ We found that major milestone dates for these 
programs slipped an average of 11 months, and Life-Cycle Cost Estimates 
increased by a total of $1.7 billion. In our 2017 high-risk report we 
found that DHS has initiated acquisition program health assessments to 
report to senior DHS management the status of major acquisition 
programs toward achieving cost, schedule, and capability goals; 
however, it will take time to demonstrate that such initiatives are 
improving program performance. In March 2016, we also reported that DHS 
leadership was taking steps to improve the affordability of its major 
acquisition portfolio, and that 14 of the 25 programs we reviewed had 
funding plans covering at least 93 percent of their estimated costs 
through fiscal year 2020.\15\ However, we found that DHS guidance does 
not require components to quantify cost estimates, funding streams, and 
the monetary value of proposed tradeoffs, and that it was uncertain 
whether DHS leadership will assess the remaining programs in a timely 
manner because the assessments are not required until major decisions, 
which can occur infrequently. In our March 2016 report, we concluded 
that without timely affordability assessments, the acquisition funding 
plans presented to Congress are less likely to be comprehensive.
---------------------------------------------------------------------------
    \14\ The remaining 6 programs lacked Department-approved schedule 
and cost goals at the time of our review (as of December 2015). See 
GAO, Homeland Security Acquisitions: DHS Has Strengthened Management, 
but Execution and Affordability Concerns Endure, GAO-16-338SP 
(Washington, DC: Mar. 31, 2016).
    \15\ GAO-16-338SP.
---------------------------------------------------------------------------
    We recommended in March 2016 that DHS: (1) Quantify information 
when assessing programs' funding gaps, (2) conduct these assessments in 
a timely manner, (3) communicate results to Congress, and (4) require 
components to establish formal affordability review processes. DHS 
concurred, and implemented the first recommendation by establishing 
guidance for components to provide detailed information about available 
funding and any associated shortfalls. DHS also has efforts under way 
to address the remaining three recommendations by requiring Department 
components to submit key funding information annually for major 
acquisition programs and ensuring all components establish formal, 
repeatable processes for addressing major acquisition affordability 
issues, among other actions. These actions, which DHS plans to complete 
by April 2017, will address our remaining recommendations once 
implemented.
    IT Management.--In our 2017 high-risk report we found that DHS has 
fully addressed three of the six IT management outcomes and mostly 
addressed the remaining three. For example, DHS established and 
implemented a tiered governance and portfolio management structure for 
overseeing and managing its IT investments, and annually reviews each 
of its portfolios and the associated investments to determine the most 
efficient allocation of resources within each of the portfolios. We 
found that the Department also made progress in implementing strategic 
IT human capital planning goals that support the Department's IT 
Strategic Plan. In this strategic plan, DHS shifted its IT paradigm 
from acquiring assets to acquiring services and acting as a service 
broker, or intermediary between the purchaser of a service and seller 
of that service. However, according to DHS officials, this shift will 
require a major transition in the skill sets of DHS's IT workforce, as 
well as hiring, training, and managing staff with those new skill sets.
    While DHS issued a contract in July 2016 for support services to 
assist DHS headquarters in implementing this transition, Department 
officials stated in September 2016 that they have not yet defined the 
skill sets needed to implement the paradigm shift or identified what 
skills gaps exist. Additionally, we found that DHS continues to take 
steps to enhance its information security program. According to 
independent auditors of the Department's financial statements, DHS had 
made progress in correcting its prior year IT security weaknesses. 
However, in November 2016--for the 13th consecutive year--the auditors 
designated deficiencies in IT systems controls as a material weakness 
for financial reporting purposes.\16\
---------------------------------------------------------------------------
    \16\ A material weakness is a deficiency, or a combination of 
deficiencies, in internal control such that there is a reasonable 
possibility that a material misstatement of the entity's financial 
statements will not be prevented, or detected and corrected, on a 
timely basis. A significant deficiency is a deficiency, or combination 
of deficiencies, in internal control that is less severe than a 
material weakness, but is important enough to merit attention by those 
charged with governance.
---------------------------------------------------------------------------
    Financial Management.--We found in our 2017 high-risk report that 
DHS has fully addressed two financial management outcomes, partially 
addressed three, and initiated three.\17\ Most notably, DHS received a 
clean audit opinion on its financial statements for 4 consecutive 
years--fiscal years 2013, 2014, 2015, and 2016--fully addressing two 
outcomes. In addition, in November 2016, DHS's financial statement 
auditors reported that one of four material weaknesses in its internal 
controls over financial reporting had been remediated since our last 
high-risk update. We found that DHS has continued efforts to improve 
internal controls and expects that it will remediate the remaining 
three by fiscal year 2017. As we reported, until remediated, these 
weaknesses will continue to hamper DHS's ability to establish effective 
internal controls over financial reporting and comply with financial 
management system requirements. We found that DHS also continues to 
make progress on three multi-year projects to modernize financial 
management systems for selected DHS components. Specifically, DHS has 
made progress on its U.S. Coast Guard modernization project, whereas 
additional efforts need to be completed on its projects to modernize 
FEMA and U.S. Immigration and Customs Enforcement financial management 
systems before DHS will be in a position to implement modernized 
solutions for these components and their customers.
---------------------------------------------------------------------------
    \17\ As previously discussed, in March 2014, we updated the actions 
and outcomes in collaboration with DHS to reduce overlap and ensure 
their continued relevance and appropriateness. These updates resulted 
in a reduction from nine to eight total financial management actions 
and outcomes.
---------------------------------------------------------------------------
    For example, discovery phase activities to determine the 
feasibility of implementing, deploying, and maintaining the chosen 
solution are not expected to be completed for these two projects until 
April 2017. Such information is essential for determining the 
implementation schedule and finalizing cost estimates that are needed 
prior to approving the projects for implementation. We concluded in our 
2017 high-risk report that without sound internal controls and systems, 
DHS faces long-term challenges in sustaining a clean audit opinion on 
its financial statements and in obtaining and sustaining a clean 
opinion on its internal controls over financial reporting, which are 
needed to ensure that its financial management systems generate 
reliable, useful, and timely information for day-to-day decision making 
as a routine business operation.
    Human Capital Management.--In our 2017 high-risk report, we found 
that DHS has fully addressed three human capital management outcomes, 
mostly addressed three, and partially addressed the remaining one. For 
example, the Secretary of Homeland Security signed a human capital 
strategic plan in 2011--which was revised and reissued in 2014--that 
DHS has since made sustained progress in implementing, thereby fully 
addressing one outcome.\18\ In addition, we found that DHS fully met 
one outcome for the first time by linking workforce planning efforts to 
strategic and program planning efforts. Specifically, DHS successfully 
demonstrated the ability to conduct structured workforce planning for 
the majority of its priority mission-critical occupations at the 
Department in fiscal year 2015, and for all mission-critical 
occupations in fiscal year 2016. To support this planning, DHS issued 
its Workforce Planning Guide in 2015, which enabled DHS components to 
apply a consistent and Departmentally-approved methodology, including 
the use of standardized tools and templates.\19\ DHS also published and 
implemented a Department-wide Employee Engagement Action Plan, which 
DHS's components used to develop tailored action plans for their own 
employee engagement and outreach.
---------------------------------------------------------------------------
    \18\ DHS, Human Capital Strategic Plan Fiscal Years 2015-2019 
(Washington, DC: October 2014).
    \19\ DHS, Office of the Chief Human Capital Officer, DHS Workforce 
Planning Guide (Washington, DC: July 2015).
---------------------------------------------------------------------------
    However, we found that DHS has considerable work ahead to improve 
employee morale. For example, the Office of Personnel Management's 
Federal Employee Viewpoint Survey data showed that DHS's scores 
generally declined in four areas (leadership and knowledge management, 
results-oriented performance culture, talent management, and job 
satisfaction) from 2008 through 2015. DHS has developed plans for 
addressing its employee satisfaction problems and improved scores in 
all four areas in 2016, but as we recommended in September 2012, DHS 
needs to continue to improve its root-cause analysis efforts related to 
these plans.\20\
---------------------------------------------------------------------------
    \20\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
    DHS also needs to continue strengthening its learning management 
capabilities. Specifically, in February 2016, we reported that DHS had 
initiated the Human Resources Information Technology (HRIT) investment 
in 2003 to address issues presented by its human resource 
environment.\21\ With respect to learning management, in February 2016 
we found limitations resulting from nine disparate learning management 
systems that did not exchange information.\22\ DHS established the 
Performance and Learning Management System (PALMS) to consolidate DHS's 
nine existing systems into one system and enable comprehensive training 
reporting and analysis across the Department, among other things. 
However, in our 2016 report, we found that selected PALMS capabilities 
had been deployed to DHS headquarters and two components, but full 
implementation at four components was not planned, leaving uncertainty 
about whether PALMS would be used enterprise-wide to accomplish these 
goals. As of September 2016, DHS had deployed selected PALMS 
capabilities to one additional component and had plans to implement it 
at two additional components in the first half of fiscal year 2017.
---------------------------------------------------------------------------
    \21\ GAO, Homeland Security: Oversight of Neglected Human Resources 
Information Technology Investment is Needed, GAO-16-253 (Washington, 
DC: Feb. 11, 2016).
    \22\ GAO-16-253.
---------------------------------------------------------------------------
    Management Integration.--In our 2017 high-risk report, we found 
that DHS has sustained its progress in fully addressing three of the 
four management integration outcomes, and partially addressed the 
remaining outcome. For example, in January 2011, DHS issued a 
comprehensive action plan to guide its management integration efforts--
the Integrated Strategy for High-Risk Management. Since then, DHS has 
generally improved the strategy with each updated version based on 
feedback we provided. DHS has also shown important progress in 
addressing the last and most significant management integration 
outcome--to implement outcomes in each management area to develop 
consistent or consolidated processes and systems within and across its 
management functional areas. For example, the Secretary's April 2014 
Strengthening Departmental Unity of Effort memorandum highlighted a 
number of initiatives designed to allow the Department to operate in a 
more integrated fashion.
    Further, in support of this effort, in August 2015, the Under 
Secretary for Management identified four integrated priority areas to 
bring focus to strengthening integration among the Department's 
management functions. According to DHS's August 2016 updated version of 
its strategy, these priorities--which include, for example, 
strengthening resource allocation and reporting reliability and 
developing and deploying secure technology solutions--each include 
detailed goals, objectives, and measurable action plans that are 
monitored at monthly leadership meetings led by senior DHS officials, 
including the Under Secretary for Management. Accomplishments DHS 
officials attribute to the Unity of Effort initiative and integrated 
priorities initiatives include the following, among others:
  <bullet> DHS's Office of Program Accountability and Risk Management 
        developed and implemented a policy directive to monitor and 
        track critical staffing gaps for major acquisition programs to 
        ensure that such gaps are identified and remediated in a timely 
        manner.\23\
---------------------------------------------------------------------------
    \23\ DHS, Major Acquisition Program Staffing Management, DHS Policy 
Directive 102-05 (Washington, DC: June 30, 2016). In December 2016, 
based in part on our input, DHS subsequently updated its staffing 
assessment guidance to re-focus the assessment process on all major 
program acquisition-related positions. This will be discussed further 
in our assessment of DHS's major acquisitions programs, to be issued in 
March 2017.
---------------------------------------------------------------------------
  <bullet> DHS Science and Technology Directorate established 
        Integrated Product Teams to better link the Department's 
        research and development investments with the Department's 
        operational needs.
  <bullet> DHS strengthened its strategy, planning, programming, 
        budgeting, execution, and acquisition processes by improving 
        existing structures and creating new ones where needed to build 
        additional organizational capability. DHS has institutionalized 
        these reforms by issuing a range of Departmental management 
        directives and instructions.
    However, as we reported in the 2017 high-risk report, given that 
these main management integration initiatives are in the early stages 
of implementation and contingent upon DHS sustaining implementation 
plans and efforts over a period of years, it is too early to assess 
their effects. We concluded that to achieve this outcome, DHS needs to 
continue to demonstrate sustainable progress integrating its management 
functions within and across the Department and its components, as well 
as fully address the other 17 outcomes it has not yet achieved.
   key themes continue to impact dhs's progress in implementing its 
                           mission functions
    In September 2011, we identified three key themes that had impacted 
DHS's progress in implementing its mission functions since it began 
operations: (1) Executing and integrating its management functions for 
results, (2) leading and coordinating the homeland security enterprise, 
and (3) strategically managing risks and assessing homeland security 
efforts.\24\ As previously discussed, DHS has made important progress 
with respect to the first theme by strengthening and integrating its 
management functions, but considerable work remains. Our recent work 
indicates that DHS has similarly made progress related to the other two 
themes of leading and coordinating the homeland security enterprise and 
strategically managing risk and assessing homeland security efforts, 
but that these two themes continue to impact the Department's progress 
in implementing its mission functions. Further, our recent work has 
also found that by addressing these two key themes, DHS could improve 
the efficiency and effectiveness of its operations.
---------------------------------------------------------------------------
    \24\ GAO-11-881.
---------------------------------------------------------------------------
    Leading and coordinating the homeland security enterprise.--As we 
reported in September 2011, while DHS is one of a number of entities 
with a role in securing the homeland, it has significant leadership and 
coordination responsibilities for managing efforts across the homeland 
security enterprise.\25\ To satisfy these responsibilities, it is 
critically important that DHS develop, maintain, and leverage effective 
partnerships with its stakeholders while at the same time addressing 
DHS-specific responsibilities in satisfying its missions. Before DHS 
began operations, we reported that to secure the Nation, DHS must form 
effective and sustained partnerships among components and also with a 
range of other entities, including Federal agencies, State and local 
governments, the private and nonprofit sectors, and international 
partners.\26\ DHS has made strides in providing leadership and 
coordinating efforts. For example, in December 2015, we reported on the 
efforts of the Federal Protective Service (FPS), an agency within DHS, 
to collaborate with the General Services Administration (GSA) to 
implement their joint responsibilities to secure and protect 
approximately 8,900 Federal facilities.\27\ We found that FPS and GSA 
have taken some steps to improve collaboration, such as drafting a 
joint strategy and renewing negotiations to update their 2006 
memorandum of agreement on roles, responsibilities, and operational 
relationships concerning the security of GSA-controlled space.
---------------------------------------------------------------------------
    \25\ GAO-11-881.
    \26\ GAO, Department of Homeland Security: Progress Report on 
Implementation of Mission and Management Functions, GAO-07-454 
(Washington, DC: Aug.17, 2007).
    \27\ GAO, Homeland Security: FPS and GSA Should Strengthen 
Collaboration to Enhance Facility Security, GAO-16-135 (Washington, DC: 
Dec. 16, 2015).
---------------------------------------------------------------------------
    However, our recent work has also identified opportunities for DHS 
to improve its partnerships, and in turn, improve the efficiency and 
effectiveness of its operations. For example, our 2016 annual report on 
fragmentation, overlap, and duplication identified strengthening FPS 
and GSA collaboration as an opportunity for improving efficiency and 
effectiveness.\28\ We reported that in December 2015, the two agencies 
had made limited progress in agreeing on several key practices GAO has 
previously identified that can enhance and strengthen 
collaboration.\29\ Specifically, FPS and GSA had not fully defined or 
articulated a common outcome or established mutually-reinforcing joint 
strategies; collaborated in communicating existing policies and 
procedures to operate across agencies and regions; or jointly developed 
mechanisms to monitor, evaluate, and report on the results of their 
related missions regarding facility protection. The incomplete 
implementation of key collaboration practices leaves day-to-day 
operational decisions to the regional and facility levels, a situation 
that may result in inconsistent management practices and may increase 
security lapses, putting facilities, tenants, and the public at greater 
risk. Thus, we recommended that FPS and GSA take actions to improve 
their collaboration by, among other things, establishing plans with 
time frames for reaching agreement on: (1) A joint strategy defining 
common outcomes and (2) roles and responsibilities. DHS concurred and 
as of December 2016, FPS reported that it had begun to take steps with 
GSA to resolve differences in agency opinions on security-related 
authorities for protecting Federal real property. FPS also stated that 
once an agreement has been established, both agencies would be better-
positioned to devise a plan with time frames for finalizing a joint 
strategy.
---------------------------------------------------------------------------
    \28\ GAO, 2016 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-16-375SP (Washington, DC: Apr. 13, 2016).
    \29\ See GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, DC: Oct. 21, 2005).
---------------------------------------------------------------------------
    Further, in March 2016, we reported on Federal efforts to address 
the risks of electromagnetic pulse or solar weather events--events 
which could have a debilitating impact on critical electrical 
infrastructure and communications systems.\30\ We found, among other 
things, that DHS and the Department of Energy (DOE), the two primary 
Federal entities with responsibilities for addressing risks to the 
energy sector, had not taken action to identify key electrical 
infrastructure assets, as called for in DHS's National Infrastructure 
Protection Plan.\31\ We recommended that DHS and DOE collaborate to 
leverage their expertise to review existing Federal Energy Regulatory 
Commission analysis to determine whether further assessment is needed 
to adequately identify critical electric infrastructure assets. DHS and 
DOE concurred and stated that they intend to review the analysis by 
April 2017 and increase collaborative efforts on addressing risks to 
electrical infrastructure.
---------------------------------------------------------------------------
    \30\ GAO, Critical Infrastructure Protection: Federal Agencies Have 
Taken Actions to Address Electromagnetic Risks, but Opportunities Exist 
to Further Assess Risks and Strengthen Collaboration, GAO-16-243 
(Washington, DC: Mar. 24, 2016).
    \31\ The National Infrastructure Protection Plan provides the 
overarching approach for integrating the Nation's critical 
infrastructure security and resilience activities into a single 
National effort.
---------------------------------------------------------------------------
    Strategically managing risks and assessing homeland security 
efforts.--As we reported in September 2011, risk management has been 
widely supported by Congress and DHS as a management approach for 
homeland security, enhancing the Department's ability to make informed 
decisions and prioritize resource investments.\32\ Since DHS has 
limited resources and cannot protect the Nation from every conceivable 
threat, it must make risk-informed decisions regarding its homeland 
security approaches and strategies. Our recent work has found that DHS 
offices and components have continued to engage in risk management 
activities. For example, in April 2016, we reported that DHS conducted 
a risk assessment to characterize risks, threats, current and future 
trends, and critical uncertainties that will most affect homeland 
security in the 2015 to 2019 time frame for its second Quadrennial 
Homeland Security Review--a comprehensive examination of the homeland 
security strategy of the United States.\33\ However, DHS did not 
incorporate all elements of a successful risk assessment for its 
Quadrennial Homeland Security Review. Specifically, DHS did not 
document how its various analyses were synthesized to generate results, 
thus limiting the reproducibility and defensibility of the results. In 
addition, the Quadrennial Homeland Security Review describes homeland 
security hazards, but does not rank those hazards or provide 
prioritized strategies. We recommended that DHS improve its risk 
assessment documentation and prioritize risks to better justify cost-
effective risk management strategies. DHS concurred with our 
recommendations and stated that it will implement them during the 2018 
Quadrennial Homeland Security Review.
---------------------------------------------------------------------------
    \32\ GAO-11-881.
    \33\ GAO, Quadrennial Homeland Security Review: Improved Risk 
Analysis and Stakeholder Consultations Could Enhance Future Reviews, 
GAO-16-371 (Washington, DC: Apr. 15, 2016).
---------------------------------------------------------------------------
    In addition, our recent work has identified opportunities for DHS 
components to better strategically manage risks in various programs. 
For example, in December 2015, we reported that DHS's U.S. Citizenship 
and Immigration Services (USCIS) and the Department of Justice's (DOJ) 
Executive Office for Immigration Review (EOIR)--the two agencies that 
adjudicate asylum applications--have limited capability to detect and 
prevent asylum fraud and that both agencies' efforts to date have 
focused on case-by-case fraud detection rather than more strategic, 
risk-based approaches.\34\ To help ensure fraud prevention controls are 
effective and appropriately targeted, we recommended that USCIS and 
EOIR conduct regular fraud risk assessments. DHS and DOJ concurred. DHS 
indicated that USCIS was in the process of developing a risk assessment 
tool and implementation plan for completing regular fraud risk 
assessments, and expected the first assessment to be completed by the 
end of fiscal year 2017.
---------------------------------------------------------------------------
    \34\ GAO, Asylum: Additional Actions Needed to Assess and Address 
Fraud Risks, GAO-16-50 (Washington, DC: Dec. 2, 2015).
---------------------------------------------------------------------------
    In September 2011, we also reported that limited strategic and 
program planning, as well as assessment and evaluation to inform 
approaches and investment decisions, had contributed to DHS programs 
not meeting strategic needs or doing so effectively and efficiently. 
For example, we reported that DHS had missed opportunities to optimize 
performance across its missions because of a lack of reliable 
performance information or assessment of existing information.\35\ Our 
recent work has also indicated that strategic and program planning 
challenges continue to affect implementation of some DHS programs. For 
example, in April 2015, we identified enhancing oversight of FEMA's 
Disaster Relief Fund as an opportunity to save millions of dollars.\36\ 
In December 2014, we found that FEMA's average annual administrative 
cost percentage (i.e., the percentage of total costs devoted to 
administrative costs) for major disasters had doubled since fiscal year 
1989.\37\ To better control and reduce its administrative costs for 
major disasters, we recommended that FEMA develop an integrated plan 
that includes all steps the agency will take, milestones for 
accomplishing cost reductions, and clear roles and responsibilities, 
including the assignment of senior officials/offices responsible for 
monitoring and measuring performance. In response, in December 2015, 
FEMA developed and issued an integrated plan to control and reduce 
administrative costs. In addition, in February 2016, Congress passed 
and the President signed the Directing Dollars to Disaster Relief Act 
of 2015 into law, which requires FEMA to implement an integrated plan 
to control its costs and report on progress for the next 7 years.\38\
---------------------------------------------------------------------------
    \35\ GAO-11-881.
    \36\ GAO, 2015 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-15-404SP (Washington, DC: Apr. 14, 2015).
    \37\ See GAO, Federal Emergency Management Agency: Opportunities 
Exist to Strengthen Oversight of Administrative Costs for Major 
Disasters, GAO-15-65 (Washington, DC: Dec. 17, 2014). Examples of FEMA 
administrative costs include the salary and travel costs for the 
disaster workforce, rent and security expenses associated with field 
operation locations, and supplies and information technology for field 
operation staff. FEMA obligated $12.7 billion from the Disaster Relief 
Fund to cover its administrative costs for the 650 major disasters 
declared during fiscal years 2004 through 2013.
    \38\ Pub. L. No. 114-132, 130 Stat. 293 (2016).
---------------------------------------------------------------------------
    Our other recent work has indicated that further strengthening 
assessment and evaluation, including using reliable performance 
information, would better inform DHS approaches and investment 
decisions. For example, in May 2015, we reported on USCIS efforts to 
transform its outdated systems for processing the millions of 
applications for persons seeking to study, work, visit, or live in the 
United States, into a modern system with electronic adjudication and 
case management.\39\ We found that USCIS expected the Transformation 
Program--which was started in 2006--to cost up to $3.1 billion and be 
fully deployed by March 2019, which is an increase of approximately $1 
billion and delay of over 4 years from its initial July 2011 baseline. 
Further, we found the program's two key governance bodies had not used 
reliable information to make decisions, and that a key change in the 
acquisition strategy--the program architecture approach--was made 
without information on the added costs associated with implementing the 
change. In our 2015 report we recommended that DHS take actions to 
improve governance and oversight of the Transformation Program, 
including re-baselining cost, schedule, and performance expectations; 
and ensuring that the two key governance bodies are relying on complete 
and accurate program data to effectively monitor performance.
---------------------------------------------------------------------------
    \39\ GAO, Immigration Benefits System: Better Informed Decision 
Making Needed on Transformation Program, GAO-15-415 (Washington, DC: 
May 18, 2015).
---------------------------------------------------------------------------
    DHS concurred with these recommendations and has taken some steps 
to address them, such as approving a re-baseline of cost, schedule, and 
performance to measure progress going forward; however, DHS needs to 
take additional actions to improve its performance monitoring data and 
strengthen management of the Transformation Program. For example, in 
July 2016, we reported that cost and schedule data reported monthly by 
the program office to the Department to monitor program performance are 
not always accurate or present a full picture of the program.\40\ In 
July 2016, we also reported on the extent to which the Transformation 
Program is using IT program management leading practices and found that 
key practices, including performance monitoring-related practices such 
as ensuring software meets expectations prior to being deployed and 
defining measureable development outcomes, were not consistently 
followed. As a result, the program runs the risks that the system will 
continue to face delays, that the functionality deployed will be of 
limited quality, and that production issues will delay performance of 
the system and the processing of filings for citizenship and 
immigration benefits. To improve program management, in July 2016 we 
made 12 recommendations, including that DHS review and update, as 
needed, existing policies and guidance and consider additional controls 
to help ensure it follows its own policies and leading practices--such 
as those to monitor performance through the collection of reliable 
metrics, ensure software meets expectations prior to deployment, and 
establish outcomes for software development, among others. DHS 
concurred and described plans to complete actions associated with the 
recommendations by July 2017.
---------------------------------------------------------------------------
    \40\ GAO, Immigration Benefits System: U.S. Citizenship and 
Immigration Services Can Improve Program Management, GAO-16-467 
(Washington, DC: July 7, 2016).
---------------------------------------------------------------------------
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions may have at this time.

    Mr. Perry. Thank you, Ms. Gambler.
    The Chair now recognizes himself and offers for unanimous 
consent to have Mr. Higgins, from Louisiana, speak out of turn 
because he has got a time issue. If anybody has objection to 
that? All right, so ordered.
    Mr. Higgins, the gentleman from Louisiana, is recognized.
    Mr. Higgins. Thank you, Mr. Chairman.
    Inspector General Roth, thank you for your service to your 
country, sir.
    Ma'am, thank you for appearing, as well.
    Inspector General, the Office of the Inspector General and 
the Government Accountability Office has named cybersecurity as 
one of the most serious and complicated challenges facing our 
country and the Department of Homeland of Security. GAO 
reported that the Federal Government, including the Department 
of Homeland Security, needs to implement several cybersecurity 
initiatives before it can be removed from GAO's high-risk list 
report. Likewise, your Department reported that the Department 
of Homeland Security needs to better oversee component 
cybersecurity and privacy of sensitive information.
    Cybersecurity is the warfare that goes on around us unseen, 
and I am quite concerned about it, as are the Members of this 
committee. Please share with us your view of where we are on 
that after your efforts as inspector general. What can we do, 
and is it being done? What can this committee do to help?
    Mr. Roth. Thank you for the question. You note that it is a 
very, very difficult task.
    Really, for the Department of Justice they really have two 
things. One, they have to secure their own networks, which is a 
challenge and something that we have looked at time and again. 
But DHS also has the obligation to secure the entire Federal 
network, the so-called dot-gov network, as well as working with 
States and private industry to secure their networks, as well. 
So they really have three different tasks that they have to do.
    With regard to the first task, they have been challenged 
over time. I would estimate or I would assess that it is 
improving and has improved in the last 3 years.
    I think the cyber attack or the breach of the Office of 
Personnel Management, in which all those personnel records were 
stolen, really served as a wake-up call. So in the last I would 
say 18 months there has been a cyber sprint, if that is the 
right word to use, to try to secure the DHS networks in a 
better way--for example, basic kinds of cybersecurity like two-
factor authentication, where you need a specialized card that 
you plug into your computer as well as a password.
    The Department historically had very low levels of 
compliance. Now they are almost at 100 percent.
    They still have a long way to go, though. For example, 
there is a thing called an authority to operate, which is 
functionally like a airworthiness certificate on an aircraft. 
It is a certification by an objective person--in this case it 
would be the chief information officer--that the system is 
locked down according to Government standards. We have found 
while that number has gone down over time--which is a good 
thing, fewer systems are operating without an authority to 
operate--there are still something like 79 systems within the 
Department of Homeland Security that are not locked down.
    So it is a constant challenge. Part of the challenge is 
some of the I.T. equipment is simply old. They are legacy 
systems that don't have the security built in.
    So these are constant challenges that they have.
    I know that GAO has done some work on, for example, 
EINSTEIN 3 Accelerated, which is the DHS system that is 
attempting to monitor the dot-gov networks, and I will let GAO 
talk about that.
    Mr. Higgins. Ma'am.
    Ms. Gambler. Similar to the I.G., GAO has identified 
challenges not just at DHS but across the Federal Government as 
it relates to cybersecurity, and that is one of GAO's high-risk 
areas. In fact, it has been on the list since, I believe, 1997, 
and it is an area where we see not just at DHS but across the 
board that there is, you know, need for additional attention 
and progress.
    With regard specifically to DHS, that is also an area we 
have identified the need for DHS to continue to work to 
strengthen its own information system security.
    Mr. Higgins. Yes, ma'am. There seems to be a little bit of 
a breakdown in just cyber communications. You had issued a 
report in January 2016 that ICE computers and USCIS computers 
were not communicating with each other, and that led to a lack 
of arrests that should have been made.
    You know, we are discussing the Department of Homeland 
Security itself, and the computer systems, and the networks 
being on a high-risk list. This is quite concerning, and I 
would encourage my esteemed colleagues on this committee that 
as we move forward we make it a high priority to focus on 
cybersecurity.
    With that, Mr. Chairman, I yield back.
    Mr. Perry. Chair thanks the gentleman from Louisiana.
    Chair now recognizes the gentleman from California, the 
Ranking Member.
    Mr. Correa. Thank you, Mr. Chairman.
    Question for Mr. Roth.
    Statements recently made by our President seem to indicate 
a lack of appreciation and desire for an independent oversight 
of the new administration. Question to you, sir: What would you 
say to critics who believe that the Federal agencies can 
operate without the work of inspector generals? Please explain 
the importance of your work.
    Mr. Roth. Thank you for that question.
    Yes, I mean, I have been at this job for 3 years, and in 
that 3 years I have seen a number of different agencies--for 
example, TSA--in which we have done independent oversight, 
reported those findings both to the administration but also, 
for example, this committee and other committees within 
Congress, and as a result of that have really changed the way 
that they have done business. We can cite a number of examples, 
for example, with regard to FEMA, with regard to TSA, with 
regard to the Secret Service.
    We are independent oversight--that is, oversight by our 
office and by the GAO. But also oversight by Congressional 
committees has assisted in improving operations.
    So I am a firm believer that independent oversight is a 
very positive thing for Government to be able to issue public 
reports that sort-of shine the disinfectant of sunlight on 
Government operations. I think it is extraordinarily important.
    Mr. Correa. My further question would be, what do you 
believe the impact would be if Federal programs were no longer 
monitored by an independent organization such as yours, sir?
    Mr. Roth. Well, I think the I.G. principle has proven 
itself over time. I think across the I.G. community it is 
something like a 17-1 ratio of--for every dollar spent on the 
I.G.s we return $17 in savings. That doesn't include the public 
safety and National security benefits, for example, that you 
get in oversight of TSA or Secret Service, where there are no 
monetary benefits but there are very real benefits to the lives 
and safety of the American people.
    Mr. Correa. Another question for you, sir. Switching 
subjects, are you currently or do you have any future plans to 
investigate allegations of Russian hacking in the U.S. 
elections this past year?
    Mr. Roth. I do not, no.
    Mr. Correa. Thank you very much.
    I yield the remainder of my time, sir.
    Mr. Perry. Chair thanks the gentleman from California, the 
Ranking Member.
    Chair now recognizes himself.
    Mr. Roth, just looking at the--there is a whole range of 
issues and 5 minutes is, as you know, clearly not enough.
    Ms. Gambler, we could spend all day.
    But let me just start somewhere that is kind-of close and 
near and dear to my heart. I live in what is called the 
Susquehanna Valley, one of the most flood-prone areas east of 
the Mississippi. Looking at FEMA and the National Flood 
Insurance Program, where I read that they currently cannot 
systematically review information on claims by policyholder 
types to reflect the risks faced by an individual property. 
This means it can't--FEMA can't look at policy rates at a more 
meaningful granular level and adjust rates accordingly.
    Quite honestly, you know, with an organization that is 
$17.5 billion or $18 billion in debt, you know, looking at the 
FEMA map issue--I am sure you are well familiar--et cetera, and 
the policies and the premiums put upon people in these areas, 
it is fairly insulting. I am just wondering, you know, when 
they could--if they had a database that worked that would 
better adjust policy rates for policyholders.
    Have you taken a look at that? Do you have any idea when 
that is going to be addressed, that database, either one of 
you?
    Ms. Gambler. The National Flood Insurance Program, as you 
said, is on the high-risk list, and one of the key management 
issues we have identified with FEMA's oversight of the program 
relates to the modernization of their I.T. systems to include 
their claims and policy system.
    I believe that, based on what is in our high-risk report, 
that FEMA is moving forward to making some progress to--or is 
moving forward to take some steps to address the challenges 
that you identify, Chairman, and we would be happy to follow 
back up with you and provide any information we have on time 
frames for that.
    Mr. Perry. OK. I would appreciate that when you can. Thank 
you.
    Since April 2016 USCIS has been accepting paper EB-5 
applications, where then the adjudicators process them by 
verifying applicant information by consulting several different 
I.T. systems. But what I find interesting is the applications 
are not scanned in and information that could be useful in 
identifying program participants linked to potential fraud is 
not required to be entered. It is not required to be entered 
into the USCIS' database, i.e. the applicant's name, address, 
and date of birth.
    I am just wondering, you know, they say--I guess the plan 
is that they are going to have something better in 2017, but 
that is--there is 12 months. A month of that is already shot, a 
month-and-a-half is shot.
    Do either of you have any idea of when in 2017? I find this 
to be an interesting issue, especially when you look at the 
dollars that go with it and some of the other political 
ramifications with the EB-5 program.
    Any idea when they are going to get a solution set in 2017?
    Mr. Roth. You know, we have looked at the ELIS system over 
the course of a number of years. I think our first report was 
in 2005 and we have done I think something like eight or nine 
reports. It is very much a moving target.
    We did a report in March of last year in which we set forth 
what they believe some of their time lines were going to be for 
introducing sort of automated reports, reports that would be, 
in fact, scanned in and then cross-referenced. Those deadlines 
have long since gone.
    For example, they attempted to automate their N-400, their 
application process, last year. It overwhelmed and functionally 
broke the system, so they had to go back to the old paper-based 
system while they figured out a new way to do this.
    So I would not commit to any time line with regard to that 
kind of improvement.
    Mr. Perry. Certainly we are not asking you to commit. I was 
just wondering if you knew, and I just think it is astounding 
in 2017, the paper applications that can't be cross-referenced, 
vetted, and aren't even scanned in--aren't even bothered to be 
scanned in at this point. I just find that overwhelming.
    Let's move on to something quickly, because time is of the 
essence here.
    Both OIG and GAO have reported on significant management 
issues at DHS and its various component--operational 
components. TSA's list of failures alone in acquiring effective 
tools is astounding.
    In your assessment--well, let me just go right to my point, 
I think. What is the Department Secretary's role in overseeing 
components' management-related activities? So you got all these 
different agencies who were thrown together in a hurry. We get 
it. It is hard. You know, they got their own processes and 
systems.
    We have a Secretary. In your opinion, each of you, what is 
the Secretary's role? What is top management's role regarding 
all the disparate organizations under DHS?
    Mr. Roth. Certainly there has been progress made in the 
last 2 or 3 years under Secretary Johnson's tenure in making an 
acquisition process that is more rational. For example, they 
have instituted the Joint Requirements Council, which is--in 
fact, for the first time--an effort to look at DHS as an entire 
entity and figure out what the joint requirements are for each 
piece of acquisition.
    They have also given more strength to the under secretary 
for management to ride herd and do oversight over each of the 
individual components within the Department of Homeland 
Security.
    I think most importantly, and what is very encouraging, is 
legislation that Congress passed in December of this--of last 
year that creates an under secretary for policy, which I think 
is going to be a key role in figuring out how it is to make 
these components, which historically have never worked 
together, work together in a meaningful way.
    So I think the--for the first time the DHS upper 
management, including the Secretary, will have some authority 
and some teeth to ride herd over the disparate components.
    Mr. Perry. Quickly, Ms. Gambler.
    Ms. Gambler. Yes.
    Mr. Perry. Thank you.
    Ms. Gambler. Chairman Perry, we would say that top 
leadership attention at the Department is critical to ensuring 
effective oversight of acquisition, I.T., and other 
investments. Across our body of work on investments and 
acquisitions at DHS one of the key findings we have had is the 
need for improved oversight and governance of those 
acquisitions and investments.
    That relates to things like the human resources; 
Information technology system; the USCIS transformation 
program, which Mr. Roth talked about. So across the board it is 
imperative that top leadership at the Department is involved 
and overseeing acquisitions and investments through executive 
steering committees, through the Acquisition Review Board, 
through the Joint Requirements Council, and so on.
    Mr. Perry. So just to kind-of wrap it up, what it sounds 
like to me there is no prohibition. This is top management. 
This is the Secretary, et cetera, that is in charge, for lack 
of a better term, of all this stuff, right?
    To me, when you are in charge you bring your leaders in 
from your disparate components and you say, ``What are your 
issues?'' or if they are already identified, ``What is the 
solution set? What is your time frame? Here is your report back 
to find out how you have done, and then we go on from there. If 
you don't complete that--and if you don't complete your mission 
maybe this isn't your life's work,'' or something like that.
    That is, I think, what we are looking for. I didn't see or 
hear anything that you said that precluded that.
    I will move on and yield.
    The Chair would now recognize the gentlelady from 
California, Ms. Barragan.
    Ms. Barragan. Thank you.
    This question is for Mr. Roth.
    Mr. Roth, it has been reported that DHS personnel, 
including Border Patrol officers, faced a great deal of 
confusion when the President initiated the Executive Order 
instituting the travel ban on the seven Muslim-majority 
countries. In fact, Members of Congress, like myself, showed up 
at airports, were redirected, ignored, didn't get any answers. 
This happened across the country seeking information.
    Did anybody within your Department complain about the lack 
of guidance that resulted from this Executive Order?
    Mr. Roth. We have started an inquiry with regard to that, 
an investigation as to CBP's implementation of the Executive 
Order. It is really in two parts.
    No. 1, how was the Executive Order implemented? What were 
the communications like? How was it communicated? In addition 
to the various court orders that were coming down at various 
times during the implementation of that. Basically, how was the 
Executive Order executed?
    Then as a separate matter we are looking into specific 
allegations of misconduct with regard to various CBP or other 
DHS personnel. So that is on-going right now. We are conducting 
interviews and looking at documents, and hopefully we will have 
a report or some kind of conclusion in the near term.
    Ms. Barragan. Do you know if any--do you happen to know if 
any employees complained about the roll-out?
    Mr. Roth. As I said, right now it is on-going so we are 
getting the kinds of information that ultimately we will be 
able to report out, but I don't have any information to share 
at this point.
    Ms. Barragan. OK. Do you have any information on what this 
may have done to employee morale?
    We heard a minute ago Ms. Gambler talk about the need to 
increase employee morale. Do you have any information on what 
the--what I call the botched roll-out of this may have done to 
employee morale?
    Mr. Roth. I do not at this point. As I said, we will 
continue to look at this issue and then hopefully we will have 
some answers for everyone.
    Ms. Barragan. OK.
    I wanted to follow up on what one of my colleagues was 
asking about earlier. My understanding is Secretary Kelly and 
President Trump have contradictory viewpoints on the role of 
the Office of the Inspector General and Government 
Accountability Office. You know, e-mails from the Trump 
transition team instructed the transition team leaders to, 
``reach out and inform the inspectors general and their agents 
that they are being held over on a temporary basis,'' and that 
they should seek out other employment.
    Inspector general by tradition have been open-ended 
appointments, regardless of party that controls the White 
House. Do you plan on investigating how these sudden and 
unprecedented changes in authority are impacting the Department 
of Homeland Security?
    Mr. Roth. I am not. I received one of those calls prior to 
the transition. That got worked out to my satisfaction. I was 
told that, in fact, I would be allowed to stay. As far as I am 
concerned, I am moving forward in the kind of aggressive, 
independent oversight that I have done in the last 3 years.
    So I don't have any intention of investigating that. As far 
as I am concerned, it is over.
    Ms. Barragan. OK. My understanding was you testified a 
minute ago about how Congressional oversight has been important 
in helping the efficiency at DHS. Is that correct?
    Mr. Roth. Yes, absolutely.
    Ms. Barragan. So I really appreciate that you said that 
because I cannot think of a more important time on them needing 
Congressional oversight than with this administration. I 
sometimes feel as though we get an order and the President is 
challenging that somebody go tell him he can't do something, as 
opposed to consulting in advance and making sure it is 
something that can be done.
    Do you have any thoughts on this theory that maybe 
Congress--in particular, this committee, Homeland Security--
should hold hearings after Executive Orders are conducted 
within maybe 15 days?
    Mr. Roth. I can only reflect on my own experience, which 
has been, you know, examination of the programs and operations 
of DHS by both Congress and the inspector general is a healthy 
thing. That is the only thing I can talk about.
    Ms. Barragan. Ms. Gambler is there anything you would like 
to add?
    Ms. Gambler. I think we would just add, as it relates 
specifically to the high-risk list, for example, our 
comptroller general testified yesterday with the issuance of 
the high-risk reports and just talked about the helpful role 
that Congress can play in holding hearings and conducting 
oversight related to, like, the high-risk areas, for example.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Mr. Perry. Chair thanks the gentlelady.
    The Chair recognizes the gentleman, Mr. Ratcliffe, the 
gentleman from Texas.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    I want to start out, follow up on the line of questioning 
by my colleague from Louisiana, Congressman Higgins, on the 
issue of cybersecurity. It is certainly not a surprise, I 
think, to any of us that both OIG and GAO have named 
cybersecurity as one of the most serious challenges that DHS 
faces.
    As the Chairman of the Cybersecurity and Infrastructure 
Protection Subcommittee I am of the opinion that it is perhaps 
our greatest National security issue at this time. With all of 
the focus on our physical borders, I believe that perhaps the 
invasion of our digital borders presents a more daunting, more 
pressing, and more difficult challenge for all of us.
    I want to start with you, Ms. Gambler. I had the chance, in 
preparing for this hearing, to review the GAO's high-risk 
reports both for 2015 and 2017, where GAO recommended specific 
changes that should be adopted with respect to the security of 
Federal information systems and critical cyber infrastructure. 
I noticed in there that you have got some 1,000 open 
information security-related recommendations that are noted. I 
am not going to ask you to prioritize those, but I am curious: 
Does GAO plan to examine the relationship between the extent of 
information security activities at each department and agency 
and the associated number of information security incidents?
    Ms. Gambler. So I am not GAO's cybersecurity expert. I 
would be happy, sir, to take that back and get you a response 
for the record.
    Mr. Ratcliffe. OK. Well, I guess the reason I ask the 
question is sometimes it is easy to identify the problem but we 
need to be helpful in terms of providing solutions. It would 
seem to me that that would provide a valuable performance 
metric by which DHS might be able to approach some of these 
challenges.
    Ms. Gambler. I would be happy to take that back, sir.
    Mr. Ratcliffe. OK.
    I didn't see it in the report, but are there any current 
practices for obtaining metrics in the cybersecurity are that 
you think that DHS ought to consider? Or is that something you 
would just prefer to circle back on?
    Ms. Gambler. We can definitely circle back and get you some 
specifics for the record, but we--I would say, as I had 
reflected earlier, that it is also important for DHS to focus 
on its own information system securities, as well, and so that 
is an important piece of identifying some of the high-risk 
areas that we have identified.
    Mr. Ratcliffe. OK.
    I am going to shift to the inspector general here in a 
second, but--because I heard him mention--you mentioned the six 
challenges, and you mentioned cybersecurity as one of them. I 
want to know if you prioritize those at all.
    But before I do I want to give, Ms. Gambler, you a chance. 
Was any prioritization done with respect to where DHS, from the 
GAO's perspective, is weakest with respect to its management at 
this point in time?
    Ms. Gambler. In terms of overall management, we would 
identify three key areas where we think DHS needs to focus its 
attention. One is in acquisition management, to ensure that its 
programs are on track to meet cost, schedule, and performance 
expectations; No. 2, within the financial management area DHS 
needs to give attention to modernizing its financial management 
systems and making more progress there; and then No. 3, within 
the area of human capital management we would like to see DHS 
focus a little more on addressing employee morale issues.
    Mr. Ratcliffe. OK. So thank you.
    Inspector General, let me give you a chance to comment on 
my question, in terms of prioritization.
    Mr. Roth. Well, certainly it has been a priority for us to 
ensure that we take a look at how DHS is handling its own 
networks, both its Classified networks and its normal sort-of 
Sensitive but Unclassified networks. We do every year the 
Congressionally-mandated annual review, the FISMA, Federal 
Information Security Management Act review, and we are able to 
sort-of log exactly how the Department is doing every year.
    I would say that for--last year there was a fairly 
significant improvement, but in years previous it was sort-of 
plateaued or in a rut. So I really do think that the--there was 
a sense of urgency in the last year that probably hadn't been 
present before. I look back at some of the high-profile hacks, 
for example, the one at OPM that I think created a sense of 
urgency within OMB that then drove it down into the various 
departments.
    So I would give them better marks this year than I have in 
the past, but there is still a long way to go.
    Mr. Ratcliffe. Terrific.
    I see my time is expired, but I do want to relay to the 
inspector general there was some speculation here about your 
tenure, the length of your tenure. I did want to state for the 
record that I wanted to commend you for your performance, 
whatever your tenure may be in your respective role. Oversight 
has at times been a challenge over the last couple of years, 
but in terms of your oversight with respect to DHS and this 
committee, I have nothing but praise for you and I have heard 
nothing but praise for you from other Members of this 
committee. So I thank you for your service and hope that it is 
a continued service.
    Mr. Roth. Thank you for that.
    Mr. Ratcliffe. With that, Mr. Chairman, I yield back.
    Mr. Roth. Thank you.
    Mr. Perry. Chair thanks the gentleman from Texas.
    The Chair thank--correction, the Chair recognizes the 
gentlelady from New York, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Roth, just minutes ago the President defended leaks 
that we saw during the campaign season and condemned leaks 
since he was sworn in. I think everyone on this committee has 
long valued the role that whistleblowers play in protecting the 
Federal Government from waste, fraud, abuse, inefficiency, 
mismanagement.
    But we have heard several members of the administration, 
including the President himself, complain about what he calls 
``leaks'' from within Federal agencies. What concerns me about 
this--and this is my question to you--is it is not just an 
issue of semantics; it is not ``I say leaks, you say 
whistleblower.''
    This rhetoric by the President of the United States, I 
believe, can have a chilling--could have a chilling effect on 
whistleblowers in--I am speaking here specifically within DHS, 
but anywhere, for that matter, in any Federal agency, from 
coming forward when they see something that is not right.
    Now, I know that--and I don't know if you are speaking to 
any people who were what I would call whistleblowers during the 
rollout of the Executive Order, the travel ban, saying, ``The 
place is a mess. We are not getting any direction. We need 
help.'' How do you feel about this issue?
    You know, whistleblower, leak--I mean, I think most people 
would agree that if they were working for a Federal agency they 
would worry about coming forward, especially when the President 
is talking about these so-called ``leakers,'' they should face 
criminal charges. So what do you say about that?
    Mr. Roth. Well, it is never a leak to come to the inspector 
general. Regardless of the level of classification of the 
material, the Whistleblower Protection Act has a safe harbor 
that any individual who is a contractor or employee of the 
Department of Homeland Security has the right--and, in fact, 
the obligation--to inform the inspector general of gross 
mismanagement; gross waste; violation of law, regulation, or 
policy. We encourage people to do that.
    Just this week we sent an e-mail to all 250,000 or 235,000 
employees of the Department of Homeland Security reminding them 
of, No. 1, their obligation to report those kinds of things; 
and No. 2, their protections under the Whistleblower Protection 
Act, that they are, in fact, protected from retaliation.
    We do have a very vigorous program in which we will 
investigate allegations of retaliation. In other words, if 
somebody appropriately blows the whistle--that is, discloses 
information in the appropriate way--we will protect those 
individuals from any kind of retaliation or personnel action as 
a result of those disclosures.
    Miss Rice. Well, I think that I would ask that you--and I 
would echo what my colleague, Mr. Ratcliffe, said about your 
performance. I would encourage you to make that known so that 
people at least within the agencies that you--agency that you 
oversee understand that and understand that they have a 
protection even though there is a President who is saying 
things that might indicate to the contrary.
    You discussed challenges that DHS was facing in executing 
the Executive Order because it, I believe, directed the 
Department to hire an additional 5,000 Border Patrol agents and 
10,000 ICE officers. Since you have recently finished an audit 
detailing the DHS's slow hiring process, how is the Federal 
hiring freeze going to affect this what you have already--what 
you have determined to be an already very lengthy process--
hiring process?
    Mr. Roth. As I understand it, the Executive Order exempts 
positions that are either National security or public safety. 
The Department has a process to determine basically position-
by-position what is exempted and what is not exempted.
    We will certainly look at that in the course of our review 
of this program.
    Miss Rice. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Perry. Chair thanks the gentlelady.
    We are going to try a second round. We are expecting votes 
momentarily, but if we can do 3 minutes we are going to 
proceed, and then when we have to end it we will end it.
    So I will recognize myself for 3 minutes.
    Regarding asylum fraud, the GAO reported that DHS's U.S. 
Citizenship and Immigration Service's and the Department of 
Justice's Executive Order--Office for Immigration Review, or 
the EOIR, have limited capabilities to detect asylum fraud, 
which GAO concluded may affect the integrity of the asylum 
system. GAO also reported that neither DHS nor the Department 
of Justice had assessed fraud risk across the asylum process.
    Since this review was not completed by the last 
administration it is safe to say that illegal immigrants who 
provided fraudulent information to the U.S. Government may--
may--have been granted asylum. Does this point need to be--does 
this point to the need for enhanced vetting of the asylum 
applicants?
    Ms. Gambler.
    Ms. Gambler. Yes, thank you, Chairman.
    In that report we made a number of recommendations to DHS 
and USCIS to strengthen their ability to detect and address 
fraud in the asylum process. Among the recommendations we had 
were that they needed to do a better fraud risk assessment so 
that they could, you know, get a sense of what the risk 
tolerance is that you want to have in the asylum fraud program. 
We also pointed to the need for additional tools for detecting 
and addressing fraud in the process and the need for additional 
training, among other things.
    Mr. Perry. So do you know, then, does the DHS have plans to 
review those risks or ones across the entire spectrum of their 
process?
    Ms. Gambler. DHS did concur with the recommendations that 
we had in the report and identified plans to be responsive to 
our recommendations.
    Mr. Perry. Do you have any idea of the time line for 
addressing a solution set? Has anything--that been fleshed out 
yet? When can we expect an answer?
    Ms. Gambler. Yes. They have been working toward addressing 
some of the recommendations in the report. Be happy to follow 
up and give you more specific time frames for the record.
    Mr. Perry. All right. As you know, that is an important 
issue, as well, so I would appreciate that.
    Ms. Gambler. Absolutely.
    Mr. Perry. With that, the Chair now recognizes the 
gentleman, the Ranking Member, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chair.
    Just a very quick question regarding the civilian hiring 
freeze implemented by the President. As of February 9 specific 
guidance has yet to be issued on how DHS will implement the 
provisions of that hiring freeze. Given critical areas such as 
our colleague from Texas was pointing to cybersecurity, any 
thoughts on what this hiring freeze--how that will impact our 
National security?
    Ms. Gambler. We haven't specifically looked at that issue 
yet. One of the things that we have pointed out, though, within 
the DHS management high-risk area is that the Department does 
need to do a better job of assessing what their human capital 
needs are in a number of areas, including acquisition and I.T. 
management. So as DHS moves forward in making those assessments 
we would say that that would be an important part of the 
consideration.
    Mr. Correa. Just a quick follow-up question, Mr. Chair.
    So we have got to go back and figure out what we need in 
the first place and try to figure out where the holes are at?
    Ms. Gambler. In certain management areas, yes, we have 
reported that DHS needs to do--could strengthen its processes 
for assessing the staff it needs.
    Mr. Correa. Including in the areas of cybersecurity?
    Ms. Gambler. Related to, yes, acquisition, I.T., yes.
    Mr. Perry. Does the Ranking Member yield?
    Mr. Correa. I yield.
    Mr. Perry. So, you know, just in closing here, you know, 
282 days to hire a Border Patrol agent. That is astounding and 
I think that if most civilian organizations saw that, I mean, 
most people aren't going to wait around for a month once they 
provide application and know that they might be considered. I 
mean, people gotta move on with their life.
    I am hoping that you are going to provide some 
recommendations for shortening that time line. I mean, even 
half of that is twice as much as it should be. I mean, it 
should be some reasonable amount of time.
    But with that, I want to thank the witnesses for their 
valuable testimony and the Members for their questions.
    For my part, Mr. Roth, Ms. Gambler, we are always happy to 
see you. Thank you for your valuable service and professional 
service, and we hope we continue to see you long into the 
future.
    Members may have some additional questions for the 
witnesses and we will ask you to respond to these in writing.
    Pursuant to committee rule VII(D), the hearing record will 
remain open for 10 days. Without objection, the subcommittee 
stands adjourned.
    [Whereupon, at 2:59 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Questions From Chairman Scott Perry for John Roth
                           February 16, 2017
    Question 1a. This subcommittee has a long-standing track record for 
proposing bipartisan management reform legislation to streamline DHS 
bureaucracy. In January 2017, the House unanimously passed the Stop 
Asset and Vehicle Excess Act (SAVE Act) aimed at improving DHS's 
ability to manage its vehicle fleets, which was based off of a body of 
important work done by the OIG.
    What additional authorities are critical to ensuring the Department 
improves its management functions to ensure that taxpayer dollars 
aren't wasted?
    Question 1b. Would legislation, such as that previously introduced 
by Members of this subcommittee related to acquisition management, help 
DHS improve management and outcomes of programs?
    Answer. DHS OIG would support legislation that codifies existing 
DHS policy and relevant offices relating to acquisitions; provides the 
necessary authority for key personnel and mechanisms within the 
Department to effectively manage major acquisition programs; reinforces 
the importance of key acquisition management practices, such as 
establishing cost, schedule, and capability parameters; and includes 
requirements to better identify and address poorly performing 
acquisition programs. In addition to the SAVE legislation, which we 
believe would be very beneficial, the committee recently proposed 
legislation intended to reform acquisition programs within DHS by 
expanding certain DHS officials' authority and responsibility for 
acquisition management, requiring DHS to develop a multi-year 
acquisition strategy, and authorizing the Department to expand its use 
of acquisition innovation.\1\ We support legislative efforts like 
these, and believe they could have a beneficial impact.
---------------------------------------------------------------------------
    \1\ See H.R. 1249, 115th Cong.  1 (2017); H.R. 1252, 115th Cong.  
1 (2017); and H.R. 1365, 115th Cong.  1 (2017).
---------------------------------------------------------------------------
    Question 2a. DHS has not done enough to address chronic employee 
morale issues across the Department, as both the OIG and GAO have 
recently reported.
    To what extent does DHS know what the root causes are behind poor 
employee morale?
    Question 2b. What risks does dismal employee morale pose to the 
Department?
    Answer. DHS is the third-largest Federal agency and its employees 
serve a variety of missions critical to the security of our Nation. The 
public relies on DHS to keep America safe, from ensuring the security 
of the Nation's transportation systems to the security of our borders. 
To achieve its mission, it is vital that DHS employ and retain a high-
caliber workforce. But low-employee morale and a dysfunctional work 
environment have plagued the Department since its inception, negatively 
impacting DHS's recruiting and retention efforts. DHS OIG has performed 
work aimed at helping to identify for the Department many of the root 
causes contributing to low morale. As we reported in November 2016, 
these issues appear to be connected to challenges we repeatedly 
identify: The Department's failure to develop, implement, and widely 
disseminate clear and consistent guidance; a lack of communication 
between staff and management; and insufficient training.\2\ DHS has 
also had problems determining how to assign staff appropriately and 
hiring and retaining enough people to handle a reasonable workload 
while maintaining a work-life balance. At times, DHS employees' jobs 
are made more difficult by the lack of needed support, such as useful 
IT systems and up-to-date technology.
---------------------------------------------------------------------------
    \2\ Major Management and Performance Challenges Facing the 
Department of Homeland Security, OIG-17-08 (November 2016).
---------------------------------------------------------------------------
    To address these issues, Department leadership must sustain its 
focus on addressing employee morale in order to fulfill its important 
mission of protecting and securing our Nation successfully.
     Questions From Ranking Member Bennie G. Thompson for John Roth
    Question 1a. Secretary Kelly has defended President Trump's 
Executive Order (EO) on immigration, but stated before this committee 
that he does not believe the roll-out should have happened so quickly, 
specifically saying the EO should have been delayed ``just a bit'' so 
that Members of Congress could be prepared. There are also conflicting 
reports on Secretary Kelly's involvement with the EO prior to the roll-
out.
    Please describe for the subcommittee how conflicting messages 
related to the EO may negatively affect the DHS workforce.
    Question 1b. In an agency already plagued with management issues, 
is DHS leadership sending the right message when it comes to the EO and 
its implementation, especially knowing many employees lacked clarity 
and information about the implementing the order?
    Answer. In response to Congressional requests and whistleblower and 
OIG Hotline complaints, we announced in February 2017 that our office 
had initiated a review of DHS's implementation of the EO, ``Protecting 
the Nation from Terrorist Entry into the United States by Foreign 
Nationals.'' The scope of our review is focused on the manner in which 
the EO was implemented by the Department--from the time the EO went 
into effect until it was stayed by Federal court order. The review will 
address the effect on employees engaged in the work, but it is too 
early to assess the broader impact on employee morale. At the 
culmination of our review, we will provide a final report to Secretary 
Kelly, the Congress, and the public.
    Question 2. According to the DHS website, there are 54 positions at 
the Department for ``senior leaders.'' As of February 9, 24 of those 
positions are filled by individuals in an acting capacity, and 14 are 
vacant.
    Based on your research of the Department, what impact do these 
vacancies and temporary leadership have on sound management practices 
and reform efforts at the Department?
    Answer. Our office has not done any work on the effect of vacancies 
on the overall functioning of an office. However, based on personal 
experience, I know it is important to quickly fill leadership 
positions, particularly in a National security agency such as DHS.
    Question 3. IG Roth, were you contacted last month by the Trump 
Transition Team to discuss your employment status as inspector general?
    When, if at all, were you made aware of the email circulated to the 
transition team regarding the temporary employment status of inspectors 
general?
    Answer. I was contacted on the evening of January 13, 2017 by the 
head of the DHS transition team and informed that I would continue to 
serve as DHS Inspector General only on a ``temporary'' basis following 
the inauguration. I was encouraged to look for alternative employment. 
I received a subsequent phone call on January 18, 2017 rescinding the 
earlier message and notifying me that I would be permitted to stay. I 
learned of the existence of the email instructions on January 17, and 
received a copy of the email from another inspector general shortly 
thereafter.
    Question 4. IG Roth, in the past the DHS workforce has stated that 
they do not trust their management, particularly citing concerns of 
retaliation. What areas should DHS leadership focus on in order to 
restore faith in the DHS workforce?
    Answer. The Department continues to rank last among large agencies 
in employee engagement and continues to suffer poor employee morale and 
a dysfunctional work environment. It is imperative that DHS leadership 
take all steps necessary to strengthen esprit de corps. The Partnership 
for Public Service has made recommendations to improve employee morale 
and engagement within DHS, including:
  <bullet> Holding executives accountable for improving employee 
        morale;
  <bullet> Partnering with employee groups to improve working 
        relationships;
  <bullet> Designing and executing short-term activities to act on 
        employee feedback and contribute to a potential long-term 
        culture change;
  <bullet> Developing and committing to shared organizational values 
        and aligning agency activities and employee interactions to 
        those values;
  <bullet> Increasing transparency and connecting employees to the 
        mission, the Department, and their co-workers; and
  <bullet> Investing in and developing employees through leadership and 
        technical training and by providing mentoring.
    Each of these steps requires a commitment from leadership, which 
involves constant attention to measuring employee engagement and 
implementing programs to improve morale. It also requires the 
leadership to publicly commit to workforce engagement.
    Beyond improving employee engagement, the Department can make 
significant strides in restoring the workforce's faith in its 
leadership by openly and actively supporting the important oversight 
function played by the OIG with respect to whistleblower protection. We 
have raised our profile within DHS as the entity to which whistleblower 
complaints are reported, and with effective results. It is our duty to 
protect these individuals from being retaliated against as a result of 
stepping forward and we remain committed to empowering and protecting 
agency whistleblowers. The Department has an important role to play in 
supporting our work, from publicizing the OIG hotline, to training 
supervisors and employees on whistleblower protections, to providing 
complete and timely cooperation to OIG investigators, auditors, and 
inspectors. The Department's unequivocal commitment to facilitating OIG 
oversight--voiced from the top down--is a critical step in earning back 
the trust of the DHS workforce.
    Question 5a. IG Roth, please describe for the subcommittee your 
role and responsibilities as it relates to oversight and investigation 
of the Department of Homeland Security.
    Can you please provide an example of information you uncovered 
about the Department, which led to money being saved, an employee being 
protected, and/or any other positive outcome?
    Question 5b. What do you believe the impact would be to DHS if your 
role were diminished in any way?
    Answer. Inspectors general play a critical role in fostering 
positive change in an agency. During my tenure as inspector general for 
DHS, I have witnessed three agencies--FEMA, TSA, and the Secret 
Service--that have had to confront the necessity of changing the manner 
in which they do business. It is a wrenching process that no agency 
would undergo voluntarily. Change in a bureaucracy happens as a result 
of three things: A dramatic intervening event, followed by intense 
scrutiny of agency programs and operations, and a resultant leadership 
commitment to change. Independent oversight by both the inspector 
general and Congress is a critical and necessary ingredient to 
positive, constructive change.
    For example, FEMA's approach to disaster response changed only 
after Hurricane Katrina revealed the shortfalls in its operations, 
consistent IG and Congressional scrutiny brought further analysis to 
the problem, and the administration and FEMA leadership committed to 
change the manner in which FEMA responded. As we saw in the Superstorm 
Sandy response, FEMA has dramatically improved its response operations.
    TSA was likewise confronted with the need to change as a result of 
dramatic and troubling shortfalls discovered by our covert testing 
program, as well as other OIG reports about deficiencies in TSA's 
judgment of risk in relation to expedited screening, vetting airport 
employees, and managing the access badge program. It was only through 
IG oversight, oversight by this and other Congressional committees, and 
TSA's then-new leadership strongly embracing the message, that TSA at 
last publicly acknowledged the need for change and started the long 
road to becoming a more effective organization.
    Finally, the well-publicized protective failures by the Secret 
Service resulted in hearings and investigations by Congress, by my 
office, and by the independent Protective Mission Panel. This oversight 
resulted in an excruciating process of examination and self-
examination, which is by no means over, about the manner in which the 
Secret Service does business. As a result, the Secret Service has taken 
steps to fix some of the systemic issues that have plagued the agency 
over time.\3\
---------------------------------------------------------------------------
    \3\ The Secret Service Has Taken Action to Address the 
Recommendations of the Protective Mission Panel, OIG-17-10 (November 
2016).
---------------------------------------------------------------------------
    Oversight makes Government better and fosters positive change. The 
critical and skeptical review of programs and operations, both by the 
inspectors general and by Congressional oversight committees, acts as 
the ``disinfectant of sunlight'' to ensure a more efficient Government. 
It works in conjunction with the Inspector General Act's requirement 
that IGs keep Congress fully and currently informed of problems, 
abuses, and deficiencies within the Department.
    Moreover, our efforts to promote efficiency and ferret out fraud, 
waste, and abuse help streamline DHS programs and operations, prevent 
wasteful spending, and ensure that DHS operates efficiently, 
effectively, and with integrity. Any diminishment of our work can be 
expected to result in an increase in program inefficiency and 
ineffectiveness.
    Question 6a. What work does the OIG have planned to audit 
activities in the area of ``Unity of Effort'' and employee morale and 
engagement, whether Department-wide or specific to a DHS component, 
during 2017?
    What types of management and performance audits, if any, does the 
OIG typically conduct in the period of transition to a new 
administration and what are examples of such audits currently under way 
or planned?
    Question 6b. What concerns should the subcommittee be aware of as 
it relates to a change in administration, particularly regarding 
employee morale?
    Answer. In 2017, a portion of our work will focus on DHS's 
acquisition management, an area where increased ``Unity of Effort'' 
would pay dividends for the Department. Since its inception in 2003, 
DHS has spent tens of billions of dollars annually on a broad range of 
assets and services--from ships, aircraft, surveillance towers, and 
nuclear detection equipment to IT systems for financial management and 
human resources. However, the Department's lack of uniform policies and 
procedures, a dedicated core of acquisition professionals, as well as 
component commitment to adhere to Departmental acquisition guidance, 
adequately define requirements, develop performance measures, and 
dedicate sufficient resources to contract oversight has resulted in 
inefficiencies and wasteful spending. In 2017, our audit work will 
evaluate DHS's progress in the area of acquisition management, with an 
emphasis on ``Unity of Effort.'' For instance, we have opened an audit 
to determine whether the Department and its components effectively 
identify capability needs for all levels of acquisitions prior to 
obtaining goods and services.
    Beyond acquisition management, our work in 2017 will look at 
``Unity of Effort'' in other areas as well. For instance, we have on-
going work to determine whether DHS fosters collaboration and unity of 
effort Department-wide to enforce and administer immigration policy. We 
are also evaluating the extent to which DHS's Joint Task Forces 
effectively coordinate DHS assets and personnel, and whether they 
achieve expected results.
    With a new administration, the Department will face new 
responsibilities. We understand the significant investment the 
Department will be making to satisfy its obligations under the multiple 
President Executive Orders. We are currently finalizing a report that 
will address lessons learned from the Department's prior Secure Border 
Initiative and other relevant acquisitions related to securing our 
borders. We expect to issue this report in early April. Subsequently, 
we plan to review U.S. Customs and Border Protection's comprehensive 
study of the security of the Southern Border that the Executive Order 
requires be completed within 180 days of the date of the Executive 
Order. Future audits will address the planning, designing, 
acquisitions, and construction phases of the Southern Border barrier.
    Similarly, the Department will face a number of challenges in 
executing the President's Executive Orders directing the Department to 
hire an additional 5,000 Border Patrol Agents and 10,000 immigration 
officers. As with the acquisition area, I have initiated the first in a 
series of audits to further review the Department's human capital 
strategies and management capabilities to ensure the Department can 
quickly and effectively hire a highly-qualified and diverse workforce. 
Our first engagement will compile and review open-source literature, 
other government reports, and prior work of our office to help the 
Department and its components avoid previously-identified poor 
management practices and their negative impacts. Subsequent audits will 
address the collateral impact hiring 15,000 agents and officers will 
have not only on other Departmental components, but also on other 
Federal agencies.
    Question 7. IG Roth, in your November 2016 report on DHS 
Management, you state that in the last 3 years, DHS leadership has 
taken positive steps to forge multiple components into a single 
organization. Further, you state new policies and directives have been 
created to ensure cohesive planning and execution, including ensuring a 
joint requirements process. What role do you feel these new programs 
and initiatives, such has Unity of Effort, have in the future of the 
Department?
    Are there any concerns the Department should keep in mind if the 
new administration elects to eliminate these new programs and 
initiatives?
    Answer. I believe that the steps the prior leadership took to 
increase Unity of Effort were very important, and extended over a 
number of areas of the Department's operations. These have benefited 
the Department and created efficiencies and synergies that would not 
have otherwise existed. However, the key to maintaining these 
improvements is constant vigilance and effort to ensure that the 
Department moves forward as a single entity. To do otherwise will 
result in a return to DHS consisting of a number of siloed 
organizations, each operating independently of each other.
    Question 8. DHS employee morale has been a major concern and focus 
of this subcommittee. DHS improved in employee engagement and survey 
participation this year, but still has a ways to go. What areas can DHS 
management improve upon as it relates to bettering the front-line 
workforce's morale, particularly at agencies such as TSA and the Secret 
Service, which rank the lowest?
    Answer. As I indicated in my answer to question 4 above, there are 
a number of steps that the Department can and should take to improve 
morale. The first is a public commitment from the leadership to 
prioritize and promote workforce engagement. Next is a commitment to 
fostering an environment conducive to high employee morale--i.e., an 
environment where transparency, constructive feedback, education and 
training, mentorship and sponsorship, and professional development 
opportunities are provided and encouraged.
    Question 9. The OIG, like the rest of DHS, is operating both under 
a continuing resolution and a hiring freeze.
    What has been the impact, whether realized or expected, of any 
budget or hiring constraints on the capacity of the OIG to perform 
management and performance audits?
    Answer. Section 6(a)(5) of the Inspector General Act states that 
inspectors general are to be treated as independent entities for 
purposes of staffing and training, and OMB Memorandum M-17-18, Federal 
Hiring Freeze Guidance, dated January 31, 2017, further clarified that 
``in the case of an Inspector General's (IG) office, the Inspector 
General is considered the agency head for the purposes of determining 
which positions in the IG office are exempt'' from the freeze. 
Exercising my authority as an agency head under the Presidential 
Memorandum entitled ``Hiring Freeze,'' I have determined that none of 
the OIG positions that are currently open are subject to the hiring 
freeze given the critical role the OIG plays in ensuring that the 
National security and public safety operations and programs 
administered by DHS are run effectively and efficiently.
    However, operating under a Continuing Resolution has hampered our 
ability to grow to the level that the Department, OMB, and Congress 
have deemed appropriate to allow us to accomplish our critical mission. 
This level requires approximately 80 additional full-time employees. 
Moreover, based on the fiscal year 2018 budget blueprint recently 
released by President Trump, it appears that our budget is, in effect, 
being cut to below fiscal year 2016 levels. This will necessarily limit 
the amount of work we can do, which calls into question whether we will 
be able to address many of the important issues this subcommittee has 
raised.
    The Brookings Institute's Center for Effective Public Management 
has analyzed the financial impact on Government when OIGs' budgets are 
cut and found that cuts to OIG budgets actually cost the Government 
money and contribute to the Federal deficit.\4\ Notwithstanding the 
President's budget blueprint, we are hopeful that Congress will approve 
a budget that reflects the value and importance of the function we 
provide.
---------------------------------------------------------------------------
    \4\ John Hudak and Grace Wallack, Sometimes Cutting Budgets Raise 
Deficits: The Curious Case of Inspectors' General Return on Investment, 
Brookings Institute (April 2015).
---------------------------------------------------------------------------
        Questions From Chairman Scott Perry for Rebecca Gambler
    Question 1a. This subcommittee has a long-standing track record for 
proposing bipartisan management reform legislation to streamline DHS 
bureaucracy. In January 2017, the House unanimously passed the Stop 
Asset and Vehicle Excess Act (SAVE Act) aimed at improving DHS's 
ability to manage its vehicle fleets, which was based off of a body of 
important work done by the OIG.
    What additional authorities are critical to ensuring that the 
Department improves its management functions to ensure that taxpayer 
dollars aren't wasted?
    Answer. GAO has not identified any additional authorities needed to 
ensure that the Department of Homeland Security (DHS) improves its 
management functions, but the Department should leverage the 
authorities it has to continue its progress.
    Question 1b. Would legislation, such as that previously introduced 
by Members of this subcommittee related to acquisition management, help 
DHS improve management and outcomes of programs?
    Answer. While the legislation introduced, such as the Reducing DHS 
Acquisition Cost Growth Act (H.R. 1294), would codify some actions that 
are already included in DHS acquisition policy, such legislation could 
also increase the oversight and accountability of DHS major acquisition 
programs.
    Question 2a. DHS has not done enough to address chronic employee 
morale issues across the Department, as both the OIG and GAO have 
recently reported.
    To what extent does DHS know what the root causes are behind poor 
employee morale?
    Answer. In fiscal year 2012, we reviewed and reported on actions 
DHS took to address the morale of its employees.\1\ We reported, among 
other things, that DHS had taken steps to understand morale problems, 
such as holding focus groups, implementing an exit survey, and 
routinely analyzing the results of the Office of Personnel Management 
(OPM) Federal Employee Viewpoint Survey--a tool that measures 
employees' perceptions of whether and to what extent conditions 
characterizing successful organizations are present in their agency. 
However, we found that the DHS Office of the Chief Human Capital 
Officer (OCHCO) and DHS components could improve their efforts to 
determine root causes of morale problems. We recommended that OCHCO and 
component human capital officials examine their root cause analysis 
efforts and, where absent, add the following: Comparisons of 
demographic groups, benchmarking against similar organizations, and 
linkage of root cause findings to action plans.
---------------------------------------------------------------------------
    \1\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
    As of February 2017, DHS OCHCO officials and supporting 
documentation indicate that DHS has taken some actions to incorporate 
these techniques. Specifically, as of December 2016, officials provided 
copies of DHS's fiscal year 2016 Component Employee Engagement Action 
Plans that components tailor for their own employee engagement and 
outreach. We reviewed the action plans and spoke with DHS OCHCO 
officials to determine the extent to which the action plans addressed 
our recommendation. Several action plans we reviewed included evidence 
of utilizing the three survey analysis techniques we recommended, while 
other action plans did not include evidence of utilizing some or all of 
the techniques. For example, components whose action plans fully 
address the recommendation include: U.S. Customs and Border Protection 
(CBP), Federal Emergency Management Agency (FEMA), U.S. Immigration and 
Customs Enforcement (ICE), and the Transportation Security 
Administration (TSA). Components whose action plans partially address 
the recommendation are: U.S. Citizenship and Immigration Services 
(USCIS), U.S. Coast Guard (USCG), and U.S. Secret Service (USSS). In 
contrast, the National Protection and Programs Directorate's (NPPD) 
action plan did not address any of the three survey analysis 
techniques. According to DHS OCHCO officials, while OCHCO developed a 
checklist that components could consult when creating action plans to 
address employee survey results, senior management decided not to 
require that components use the checklist in developing their action 
plans as it may limit their freedom to develop their goals and plan. To 
fully address the recommendation we made and thereby strengthen DHS's 
evaluation and planning process for addressing employee morale, DHS 
OCHCO officials need to continue to provide documentary evidence of 
demographic analysis, benchmarking, and root cause linkage efforts 
completed for components that have not fully addressed the 
recommendation in their action plans. DHS OCHCO officials agreed with 
our analysis and reiterated their efforts to fully implement this 
recommendation.
    Question 1b. What risks does dismal employee morale pose to the 
Department?
    Answer. DHS employee concerns about job satisfaction are one 
example of the challenges the Department faces in implementing its 
mission to protect the security and economy of our Nation. We have 
previously reported that successful organizations empower and involve 
their employees to gain insights about operations from a front-line 
perspective, increase their understanding and acceptance of 
organizational goals and objectives, and improve motivation and 
morale.\2\ In January 2003, we designated the implementation and 
transformation of DHS as high-risk, including its management of human 
capital, because it represented an enormous and complex undertaking 
that would require time to achieve in an effective and efficient 
manner, and it has remained on our high-risk list since that time. In 
our 2017 high-risk report, we found that DHS still had considerable 
work remaining to address employee morale, and that employee morale 
issues had contributed to management challenges that hinder the 
agency's ability to achieve its mission.\3\
---------------------------------------------------------------------------
    \2\ GAO, High-Risk Series: Strategic Human Capital Management, GAO-
03-120 (Washington, DC: January 2003).
    \3\ GAO, High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, DC: Feb. 
15, 2017).
---------------------------------------------------------------------------
  Questions From Ranking Member Bennie G. Thompson for Rebecca Gambler
    Question 1. Cited in the high-risk report is the necessity for DHS 
to identify workforce needs and address deficiencies within acquisition 
personnel, who oversee and manage contracts that have become 
increasingly expensive and complex. What impact do you anticipate 
President Donald Trump's Federal Hiring Freeze Executive Order will 
have on DHS's ability to remain consistent with this recommendation, 
particularly regarding our ability to address areas of critical need 
via the workforce?
    Answer. GAO has not looked at the effects of the 2017 Federal 
Hiring Freeze Executive Order on DHS's ability to assess and address 
whether appropriate numbers of trained acquisition personnel are in 
place at the Department and component levels. However, GAO has 
previously reported on the effects of Government-wide hiring freezes, 
and found they are not an effective means of controlling Federal 
employment. In March 1982, we reported that because Government-wide 
hiring freezes did not account for individual agencies' missions, 
workload, and staffing requirements, they disrupted agency operations 
and, in some cases, increased costs to the Government.\4\ Specifically, 
we found that because such hiring freezes disregarded agency workload 
requirements and did not cover all personnel resources used by the 
Government, they created an incentive for managers to use alternative 
sources of labor. Any potential savings produced by these freezes would 
be partially or completely offset by increasing overtime, contracting 
with private firms, or using other than full-time permanent employees. 
We concluded that improved workforce planning and use of the budget as 
a control on employment, rather than arbitrary across-the-board hiring 
freezes, is a more effective way to ensure that the level of personnel 
resources is consistent with program requirements.
---------------------------------------------------------------------------
    \4\ GAO, Recent Government-Wide Hiring Freezes Prove Ineffective in 
Managing Federal Employment, FPCD-82-21 (Washington, DC: Mar. 10, 
1982).
---------------------------------------------------------------------------
    Question 2. GAO found that DHS components were inconsistent in how 
they implemented the Department's acquisition management policy. The 
example GAO presented in March 2016 involved the Coast Guard, which had 
prepared incomplete funding plans. Has the Department indicated to you 
how it plans on ensuring that all of its components fully implement its 
acquisition management policy?
    Answer. DHS components have continued to make progress implementing 
the Department's acquisition management policy. For example, in August 
2016, DHS approved the Acquisition Program Baseline for the U.S. Coast 
Guard's (USCG) Medium-Range Surveillance program--marking the first 
time all of the programs included in our annual assessments of DHS's 
major acquisition programs have had approved baselines. However, 
additional work remains to be done to effectively manage acquisition 
programs. For example, in April 2015, we recommended DHS account for 
all of the Operations and Maintenance (O&M) funding the USCG plans to 
allocate to its acquisition programs in its annual reports to Congress. 
DHS concurred with the recommendation, but the USCG has yet to take 
action. Given that an acquisition program's O&M activities can account 
for more than 80 percent of program life-cycle costs, DHS's continued 
inability to account for all of the O&M funding the USCG plans to 
allocate to its acquisition programs is significant. Until DHS 
implements our April 2015 recommendation, this issue will continue to 
obscure the size of the USCG's funding shortfalls and undermine DHS's 
efforts to address the USCG's funding gaps in an informed manner. We 
continue to monitor DHS's actions to address program affordability and, 
at the request of Congress, have initiated a review to assess the 
extent to which DHS has accounted for programs' O&M costs and funding.
    Question 3. As the transition to a new administration continues, 
what management and administration structures are currently in place to 
enable DHS to continue with implementation of both the human capital 
strategic plan and its workforce planning initiatives? How is GAO 
staying apprised of developments related to human capital management 
during this period?
    Answer. In its August 2016 Integrated Strategy for High-Risk 
Management--the framework DHS established to monitor progress and 
implementation of key management initiatives for strengthening it 
management functions--DHS describes steps the agency has taken and 
plans to take to implement its human capital strategic plan and 
workforce planning efforts. For example, DHS indicated the Department's 
senior human capital leadership intends to continue to review the human 
capital strategic plan on an annual basis to develop an operational 
plan for the next fiscal year. The operational plan is to provide the 
tactics and associated evidence of progress toward implementing the 
human capital strategic plan. In addition, the August 2016 Integrated 
Strategy for High-Risk Management states that senior human capital 
leadership will provide on-going monitoring of the human capital 
strategic plan through the Human Capital Dashboard--which provides 
information on progress towards targets--and quarterly review meetings 
to discuss measures, goals, and progress in implementing the associated 
operational plan. With regard to workforce planning, in September 2016, 
DHS officials indicated that DHS will continue to implement its 
workforce planning model in fiscal year 2017. This model is documented 
in the DHS Workforce Planning Guide and involves the following five 
steps:
  <bullet> set the strategic direction, including linking the workforce 
        and the strategy, considering the scope, and determining the 
        workforce balance;
  <bullet> conduct a supply analysis, demand analysis, and identify 
        gaps in capacity and capability;
  <bullet> develop an action plan including strategies and actions to 
        address identified gaps;
  <bullet> implement the action plan; and
  <bullet> monitor, evaluate, and revise the plan.
    To stay apprised of DHS's human capital management efforts, we will 
continue to engage with DHS leadership through various means to help 
ensure the Department maintains its progress in implementing corrective 
actions through completion. Specifically, we will continue to:
  <bullet> Assess and provide feedback to DHS leadership on reports the 
        Department submits on its progress in addressing the 
        Strengthening DHS Management Functions high-risk area, which 
        the National Defense Authorization Act for Fiscal Year 2017 
        mandates the DHS Under Secretary for Management provide to us 
        every 6 months.\5\
---------------------------------------------------------------------------
    \5\ The National Defense Authorization Act for Fiscal Year 2017 
includes a mandate that the DHS Under Secretary for Management report 
to us every 6 months to demonstrate measurable, sustainable progress 
made in implementing DHS's corrective action plans to address the 
Strengthening DHS Management Functions high-risk area until we submit 
written notification of the area's removal from the High-Risk List to 
the appropriate Congressional committees. See Pub. L. No. 114-328,  
1903(b) (codified at 6 U.S.C.  341(a)(11)).
---------------------------------------------------------------------------
  <bullet> Hold quarterly meetings with DHS leadership to discuss the 
        Strengthening DHS Management Functions high-risk area and other 
        pertinent issues.
  <bullet> Discuss the results of our audit work within DHS's 
        management areas with DHS leadership.
  <bullet> Perform outreach to senior DHS officials regarding the 
        extent to which the Department has implemented our 
        recommendations, including those related to the Strengthening 
        DHS Management Functions high-risk area, to help ensure that 
        they are implemented effectively and in a timely manner.
    Question 4. Initiated in 2003, the Human Resources Information 
Technology (HRIT) investment is intended to consolidate, modernize, and 
integrate the human resources information technology infrastructure at 
DHS. Of 15 strategic improvement areas measured, GAO reported that only 
one had been fully implemented. This subcommittee held a hearing last 
year to get an understanding of what went wrong and to galvanize the 
Department's reform efforts.
    Please explain to the subcommittee the issues that the investment's 
inefficiency continues to create for DHS and how the Department can 
address those challenges.
    Answer. The HRIT investment is intended to address the fragmented 
systems, duplicative and paper-based processes, and the lack of 
uniformity of data management practices within the Department's human 
resources environment. According to DHS, these issues are compromising 
the Department's ability to effectively and efficiently carry out its 
mission. For example, according to DHS, reporting and analyzing 
enterprise human capital data are time-consuming, labor-intensive, and 
challenging because the Department's data management largely consists 
of disconnected, stand-alone systems, with multiple data sources for 
the same content. Additionally, according to DHS, the Department does 
not have information on all of its employees, which reduces its 
abilities to strategically manage its workforce and best deploy people 
in support of homeland security missions. Further, based on its current 
human resources environment, DHS reported that it, among other things:
  <bullet> is unable to support enterprise reporting of human resources 
        information and has data quality issues;
  <bullet> does not have enterprise-level employee performance 
        information available or standardized performance measures 
        across the components; and
  <bullet> incurs significant costs associated with maintaining seven 
        different systems for personnel action requests, and 
        experiences inefficiencies due to duplicative data entry into 
        multiple systems.
    To address these challenges and effectively implement HRIT, DHS 
needs to fully implement the 14 recommendations we had made in our 
February 2014 report.\6\ To its credit, the Department has fully 
implemented 3 of the 14 recommendations, including re-evaluating HRIT's 
strategic improvement opportunities to determine whether they are still 
valid and reflective of DHS's current needs and re-prioritizing the 
improvement opportunities as needed to determine on which ones to focus 
first. Going forward, the Department needs to fully implement the 
remaining 11 recommendations, including
---------------------------------------------------------------------------
    \6\ Homeland Security: Oversight of Neglected Human Resources 
Information Technology Investment Is Needed, GAO-16-253 (Washington, 
DC: Feb. 11, 2016).
---------------------------------------------------------------------------
  <bullet> ensuring that the HRIT executive steering committee is 
        consistently involved in overseeing and advising HRIT,
  <bullet> developing a complete life-cycle cost estimate, and
  <bullet> updating and maintaining a schedule estimate for 
        implementation of the improvement opportunities.
    Question 5. Can you please describe for the subcommittee your views 
on the role of independent, impartial oversight of Federal agencies?
    In your opinion, what impact would Federal agencies face without 
the work of GAO?
    Answer. GAO exists to support Congress in meeting its 
Constitutional responsibilities and to help improve the performance and 
ensure the accountability of the Federal Government for the benefit of 
the American people. We examine how taxpayer dollars are spent and 
advise lawmakers and agency heads on ways to make Government work 
better. GAO is a unique Federal entity that can look across the 
Government and follow Federal spending internationally and domestically 
across Federal, State, and local government levels. In this role, we 
continue to monitor and address the Nation and Government's most 
pressing challenges. For example, GAO's ``Key Issues'' website (http://
www.gao.gov/key_issues) provides incoming Members of Congress and the 
American people with quick and easy access to bodies of GAO work on 
issues of critical importance to the nation, including collections of 
cross-cutting work on the Fiscal Outlook, High-Risk List, and 
Duplication and Cost Savings.
    In fiscal year 2016, we documented $63.4 billion in financial 
benefits for the Federal Government--a return of about $112 for every 
dollar we spent--and 1,234 improvements in broad program and 
operational areas across the Government. In addition, in fiscal year 
2016, 73 percent of our recommendations were implemented by Federal 
agencies or Congress, and 68 percent of the products we issued 
contained recommendations.
    Question 6. Ms. Gambler, please describe what you believe is the 
most important area DHS can improve upon, particularly as it relates to 
employee morale.
    How does a change in administration, leadership, and priorities 
typically impact workforce morale?
    Answer. While GAO has not done work on how changes in 
administration, leadership, and priorities impact workforce morale, it 
will be important for DHS to consider employee morale as it works to 
implement the new administration's priorities. As we reported in our 
2017 high-risk report, DHS has taken steps but still has considerable 
work ahead to improve employee morale.\7\ For example, in response to 
our recommendation that OCHCO and component human capital officials 
establish metrics of success within the action plans that are clear and 
measurable, DHS officials have regularly provided us with copies of 
annual component employee engagement action plans, most recently as of 
December 2016. We reviewed the action plans and spoke with DHS OCHCO 
officials to determine the extent to which DHS's action plans addressed 
our recommendation. Our review in January 2017 indicated that two 
components' action plans included clear and measureable targets. 
However, several other component plans did not fully address both 
elements. For example, components whose action plans fully address the 
recommendation include ICE and NPPD. Components whose action plans 
partially address the recommendation are CBP, USCG, FEMA, TSA, and 
USSS. USCIS's action plan did not address the recommendation. To fully 
address this recommendation, DHS OCHCO officials need to continue to 
provide documentary evidence of improved measure clarity and 
incorporate measurable targets in their action planning efforts for 
components whose action plans do not support closure of the 
recommendation. DHS OCHCO officials agreed with our assessment and told 
us that they are planning to provide training to component officials 
over the coming year to address action planning needs. We will continue 
to monitor DHS's efforts to address our recommendation to help 
strengthen employee morale.
---------------------------------------------------------------------------
    \7\ GAO-17-317.
---------------------------------------------------------------------------
    Question 7. Ms. Gambler, you note several improvements the 
Department made, particularly related to Human Capital Plans. However, 
some components, such as CBP have struggled to fully staff at the 
allotted Congressional cap. It is also expected that the workforce will 
need to further increase under the new administration. Has the 
Department addressed staffing needs, particularly of Border Patrol 
agents, in its Human Capital Plan?
    How will the Plan need to be adjusted given the new 
administration's priorities?
    Answer. DHS's human capital strategic plan outlines high-level 
goals and objectives that describe desired future states and outcomes, 
but does not include specific plans to address CBP or Border Patrol 
workforce challenges.\8\ However, as part of its workforce planning 
process, DHS has assessed Border Patrol workforce capacity gaps, worked 
to identify root causes for its continued challenges in meeting 
staffing goals, and developed an action plan to address the priority 
root cause it identified. For example, in fiscal year 2016, DHS 
identified attrition as the highest priority root cause of its Border 
Patrol agent staffing challenges, and identified actions, such as 
utilizing pay and compensation flexibilities to incentivize mission 
critical personnel to remain with CBP. Moving forward, DHS will need to 
incorporate any changes in Border Patrol staffing requirements into its 
workforce planning efforts, reassess capacity gaps and root causes, and 
design an action plan that addresses the highest priority challenges.
---------------------------------------------------------------------------
    \8\ DHS, Human Capital Strategic Plan Fiscal Years 2015-2019 
(Washington, DC: October 2014).
---------------------------------------------------------------------------
    Question 8. In his exit memo, former Secretary Jeh Johnson cites 
the need for ``an aggressive campaign to improve morale and 
satisfaction at the Department.'' Based on your review of the 
Department, what are ways the new administration can continue the 
aggressive campaign the former Secretary started?
    What particular programs or policies did the DHS workforce seem to 
take a particular interest in and/or respond the most positively to?
    Answer. As we reported in our 2017 high-risk report, DHS has taken 
steps but still has considerable work ahead to improve employee 
morale.\9\ For example, DHS has implemented a Department-wide Employee 
Engagement Action Plan, which DHS's components use to develop tailored 
action plans for their own employee engagement and outreach; however, 
to continue to make progress in addressing employee morale, DHS needs 
to fully implement our prior recommendations to: (1) Comprehensively 
examine root causes and (2) establish clear metrics of success with DHS 
and its components' actions plans.\10\ By implementing these 
recommendations DHS would be better-positioned to design action plans 
that address root causes of employee morale issues and determine the 
effectiveness of their plans.
---------------------------------------------------------------------------
    \9\ GAO-17-317.
    \10\ GAO-12-940.
---------------------------------------------------------------------------
    Additionally, while we have not examined the particular DHS efforts 
to which DHS's workforce has responded most positively, we have 
previously identified key drivers and lessons learned for strengthening 
employee engagement that DHS could leverage in its efforts to improve 
employee morale.\11\ In 2015, we reported that overall, what matters 
most in improving engagement levels is valuing employees--that is, an 
authentic focus on their performance, career development, and inclusion 
and involvement in decisions affecting their work. Specifically, our 
regression analysis of selected Federal Employee Viewpoint Survey 
questions identified the following six practices as key drivers of 
engagement, as measured by OPM's Employee Engagement Index: (1) 
Constructive performance conversations, (2) career development and 
training, (3) work-life balance, (4) inclusive work environment, (5) 
employee involvement, and (6) communication from management. Further, 
our case studies of three agencies also identified three key lessons 
for improving employee engagement:
---------------------------------------------------------------------------
    \11\ GAO, Federal Workforce: Additional Analysis and Sharing of 
Promising Practices Could Improve Employee Engagement and Performance, 
GAO-15-585 (Washington, DC: July 14, 2015).
---------------------------------------------------------------------------
  <bullet> Any change must be implemented using effective management 
        practices, such as top leadership involvement, consistently 
        applying policies, creating a line of sight between the 
        agency's mission and the work of each employee, and reaching 
        out to employees and their labor union representatives, if 
        applicable, to obtain insights and inform efforts.
  <bullet> The Employee Engagement Index alone is not enough; agencies 
        must look to other sources of data for a complete picture of 
        employee engagement levels in their organization and its 
        components.
  <bullet> Improving engagement and organizational performance takes 
        time and does not neatly follow the survey cycle; change may 
        involve several efforts and effects are seen at different 
        points in time.
    Question 9. Building the morale of DHS's workforce was a high 
priority for the previous administration, including former Secretary 
Jeh Johnson. How much more difficult does President Donald Trump's 
Federal Hiring Freeze Executive Order make that challenge for the new 
DHS Secretary General John Kelly?
    Based on your research on human capital challenges at the 
Department, what areas warrant particular attention and consideration 
in order to maintain positive momentum with DHS morale?
    Answer. While GAO has not assessed the Executive Order, it will be 
important for DHS to consider its impacts as the Department moves 
forward with its efforts to address employee morale. We have previously 
identified specific actions that DHS should take as well as key drivers 
and lessons learned DHS could leverage to continue to strengthen 
employee engagement.\12\ In 2012, we reviewed and reported on actions 
DHS took to address the morale of its employees and recommended that 
DHS: (1) Comprehensively examine root cause analysis efforts and, where 
absent, add the comparisons of demographic groups, benchmarking against 
similar organizations, and linkage of root cause findings to action 
plans; and (2) establish clear metrics of success with DHS and its 
components' actions plans for employee engagement and outreach.\13\ As 
we reported in our 2017 high-risk report, DHS must implement these 
recommendations, among others, in order to make continued progress in 
achieving the outcomes that are critical to addressing the challenges 
within the Department's high-risk management areas.\14\
---------------------------------------------------------------------------
    \12\ See GAO-12-940 and GAO-15-585.
    \13\ GAO-12-940.
    \14\ GAO-17-317.
---------------------------------------------------------------------------
    In addition, in 2015, we identified key drivers and lessons learned 
for strengthening employee engagement that DHS could leverage in its 
efforts improve employee morale.\15\ Overall we found that what matters 
most in improving engagement levels is valuing employees--that is, an 
authentic focus on their performance, career development, and inclusion 
and involvement in decisions affecting their work. Specifically, our 
regression analysis of selected Federal Employee Viewpoint Survey 
questions identified the following six practices as key drivers of 
engagement, as measured by OPM's Employee Engagement Index: (1) 
Constructive performance conversations, (2) career development and 
training, (3) work-life balance, (4) inclusive work environment, (5) 
employee involvement, and (6) communication from management. Further, 
our case studies of three agencies also identified three key lessons 
for improving employee engagement:
---------------------------------------------------------------------------
    \15\ GAO-15-585.
---------------------------------------------------------------------------
  <bullet> Any change must be implemented using effective management 
        practices, such as top leadership involvement, consistently 
        applying policies, creating a line of sight between the 
        agency's mission and the work of each employee, and reaching 
        out to employees and their labor union representatives, if 
        applicable, to obtain insights and inform efforts.
  <bullet> The Employee Engagement Index alone is not enough; agencies 
        must look to other sources of data for a complete picture of 
        employee engagement levels in their organization and its 
        components.
  <bullet> Improving engagement and organizational performance takes 
        time and does not neatly follow the survey cycle; change may 
        involve several efforts and effects are seen at different 
        points in time.
    Question 10. Ms. Gambler, what is the single most important action 
DHS can take to address the remaining two requirements to be removed 
from the High-Risk List?
    In addition, what is the most important action DHS must continue in 
order to prevent backsliding?
    Answer. In order to address the remaining two criteria for removal 
from the High-Risk List and prevent backsliding, DHS needs to achieve 
sustained progress across 30 outcomes that we identified and DHS agreed 
were needed to address the Strengthening DHS Management Functions high-
risk area. In our 2017 high-risk report, we found that DHS has fully 
addressed 13 of these outcomes, mostly addressed 8, partially addressed 
6, and initiated the remaining 3.\16\ Furthermore, we found that in 
order to achieve the 30 outcomes, DHS will need to make additional 
progress identifying and allocating resources in the following areas:
---------------------------------------------------------------------------
    \16\ GAO-17-317.
---------------------------------------------------------------------------
  <bullet> Acquisition Management.--With respect to acquisition, DHS's 
        2016 staffing assessments focused on identifying critical 
        acquisition-related position gaps rather than all major program 
        acquisition-related positions; consequently, some programs were 
        assessed as being fully or almost fully staffed for critical 
        positions despite significant staffing shortfalls in the 
        overall program. We concluded that this increased focus on 
        critical gaps may limit DHS's insight into the size and nature 
        of acquisition-related staffing shortfalls, making it difficult 
        for DHS to develop a plan or process to address these 
        vacancies. In December 2016, DHS updated its staffing 
        assessment guidance to re-focus the assessment process on all 
        major program acquisition-related positions. However, DHS plans 
        to pilot the implementation of this policy update incrementally 
        during 2017 and the timing of full implementation is not yet 
        known.
  <bullet> Information Technology (IT) management.--DHS's fiscal year 
        2015-2018 IT Strategic Plan introduced the Department's plan to 
        shift the IT paradigm from acquiring assets to acquiring 
        services and acting as a service broker. The Department's 
        August 2016 updated version of its strategy reported that this 
        shift is a mechanism for building capacity to resolve risk. 
        However, while DHS issued a workforce planning contract in July 
        2016 to help DHS headquarters transition to the skillsets 
        needed to accommodate the service broker model, Department 
        officials stated that they have not yet defined what those 
        skill sets are or analyzed the skills gaps resulting from the 
        paradigm shift. Because DHS has yet to comprehensively assess 
        IT human capital gaps within headquarters, it remains unclear 
        whether DHS has the capacity to support this paradigm shift.
  <bullet> Financial Management.--Additionally, although DHS continues 
        to make progress towards modernizing its financial management 
        systems, critical information needed to determine the resources 
        required for two of three key modernization projects is not 
        available as the projects are not yet to a point where DHS can 
        determine what resources are required. We reported that the 
        discovery phase of these projects provides essential 
        information for determining the implementation schedule and 
        finalizing cost estimates that are needed prior to approving 
        the projects for implementation; however, this phase is not 
        expected to be completed for DHS's FEMA and ICE modernization 
        projects until April 2017.\17\
---------------------------------------------------------------------------
    \17\ The discovery phase includes an in-depth analysis of the 
requirements and capabilities of the new system, also known as a gap 
analysis, and is also performed to determine the feasibility of 
implementing, deploying, and maintaining financial management services 
for the chosen solution.
---------------------------------------------------------------------------
    Question 11a. Ms. Gambler, DHS has struggled with the modernization 
of its information technology systems. Did you evaluate any of those 
programs during your review of the High-Risk List?
    Answer. Yes, we evaluated and monitored eight of DHS's previously 
or currently troubled IT investments as part of our High-Risk List 
review. Specifically, we included the following investments:
    1. Analysis and Operations' Homeland Security Information Network
    2. CBP's Automated Commercial Environment
    3. DHS HRIT
    4. FEMA's Logistics Supply Chain Management System
    5. ICE's Student and Exchange Visitor Information System
    6. ICE's TECS Modernization
    7. NPPD Federal Protective Service TacCom
    8. USCIS Transformation
    To monitor and evaluate these investments, we tracked their 
respective Chief Information Officer (CIO) ratings that DHS reported on 
OMB's IT Dashboard, as well as analyzed the results of DHS's internal 
IT program health assessments. We also reviewed documentation 
demonstrating actions that DHS oversight officials had taken or were 
currently taking to improve the performance of the troubled 
investments. Further, we relied on reports and documentation from other 
GAO audits, such as our 2016 report on DHS's major acquisition 
programs, to track the cost, schedule, and performance of these 
investments.\18\
---------------------------------------------------------------------------
    \18\ GAO, IT Dashboard: Agencies Need to Fully Consider Risks When 
Rating Their Major Investments, GAO-16-494 (Washington, DC: June 2, 
2016); Homeland Security Acquisitions: DHS Has Strengthened Management, 
but Execution and Affordability Concerns Endure, GAO-16-338SP 
(Washington, DC: Mar. 31, 2016); GAO-16-253; Immigration Benefits 
System: Better Informed Decision Making Needed on Transformation 
Program, GAO-15-415 (Washington, DC: May 18, 2015); Homeland Security 
Acquisitions: Major Program Assessments Reveal Actions Needed to 
Improve Accountability, GAO-15-171SP (Washington, DC: Apr. 22, 2015); 
and Border Security: DHS's Efforts to Modernize Key Enforcement Systems 
Could be Strengthened, GAO-14-62 (Washington, DC: Dec. 5, 2013).
---------------------------------------------------------------------------
    Question 11b. What are your suggestions for the Department to 
finally get programs such as HRIT and USCIS Transformation on the right 
track, both of which were initiated a decade ago?
    Answer. To help get programs such as HRIT and USCIS Transformation 
on the right track, the Department should focus on the use of 
incremental development, consistent with Office of Management and 
Budget guidance directing that IT investments deliver functionality in 
6-month increments. The Department's use of ``big bang'' approaches, 
which scope requirements broadly and aim to deliver functionality 
several years after initiation, too frequently fail. According to the 
Defense Science Board, such an approach--which DHS had used on programs 
such as USCIS Transformation--is often too long, ineffective, and 
unaccommodating of the rapid evolution of IT.
    Additionally, the Department should focus on improving its capacity 
to successfully acquire IT by fully implementing the CIO oversight and 
management authorities described in the Federal IT Acquisition Reform 
Act (FITARA).\19\ The Department should also promptly address the 
numerous outstanding recommendations that we made to HRIT and USCIS 
Transformation, which are consistent with FITARA.\20\
---------------------------------------------------------------------------
    \19\ Pub. L. No. 113-291, div. A,  831(a), 128 Stat. 3292, 3438-
3440 (2014).
    \20\ GAO, Immigration Benefits System: U.S. Citizenship and 
Immigration Services Can Improve Program Management, GAO-16-467 
(Washington, DC: July 7, 2016); GAO-16-253; and GAO-15-415.
---------------------------------------------------------------------------
    Question 12. Ms. Gambler, what impact do you feel initiatives such 
as Unity of Effort and the Joint Requirements Council have on the 
Department's management integration?
    Answer. The Secretary of Homeland Security's Unity of Effort 
initiative and the Joint Requirements Council (JRC) are positive steps 
toward strengthening management integration, but it is too early to 
assess their effects. Specifically, the Unity of Effort initiative has 
helped to strengthen the integration of DHS's business operations 
across the Department by, for example, finalizing a management 
directive in June 2015 that formally establishes multiple senior leader 
forums for on-going review of Departmental initiatives.\21\ The 
Secretary's Unity of Effort initiative also established enhancements to 
DHS's budgeting process by creating a new approach to mission-focused, 
cross-DHS budget development and assessment. Additionally, DHS 
officials attribute the following accomplishments, among others, to the 
Unity of Effort initiative and integrated priorities initiatives:
---------------------------------------------------------------------------
    \21\ DHS, Secretary of Homeland Security, Strengthening 
Departmental Unity of Effort, Memorandum for DHS Leadership 
(Washington, DC: Apr. 22, 2014). This memorandum committed to, among 
other things, improving DHS's planning, programming, budgeting, and 
execution processes through strengthened Departmental structures and 
increased capability. DHS, Strengthening Departmental Unity of Effort, 
Management Directive 071-01 (Washington DC: June 30, 2015).
---------------------------------------------------------------------------
  <bullet> DHS's Office of Program Accountability and Risk Management 
        developed and implemented a policy directive to monitor and 
        track critical staffing gaps for major acquisition programs to 
        ensure that such gaps are identified and remediated in a timely 
        manner.\22\
---------------------------------------------------------------------------
    \22\ DHS, Major Acquisition Program Staffing Management, DHS Policy 
Directive 102-05 (Washington, DC: June 30, 2016). In December 2016, 
based in part on our input, DHS subsequently updated its staffing 
assessment guidance to re-focus the assessment process on all major 
program acquisition-related positions. This will be discussed further 
in our assessment of DHS's major acquisitions programs, to be issued in 
March 2017.
---------------------------------------------------------------------------
  <bullet> DHS Science and Technology Directorate established 
        Integrated Product Teams to better link the Department's 
        research and development investments with the Department's 
        operational needs.
  <bullet> DHS strengthened its strategy, planning, programming, 
        budgeting, execution, and acquisition processes by improving 
        existing structures and creating new ones where needed to build 
        additional organizational capability. DHS has institutionalized 
        these reforms by issuing a range of Departmental management 
        directives and instructions.
    However, given that these Unity of Effort initiatives are in the 
early stages of implementation and contingent upon DHS sustaining 
implementation plans and efforts over a period of years, it is too 
early to assess their effects.
    Additionally, the re-establishment of the JRC after many years 
without such an active body is a positive demonstration of senior-level 
commitment to improving the DHS-wide capabilities and requirements 
processes. The JRC has the potential to help DHS reduce duplication and 
make cost-effective investments across its portfolio; however, specific 
outcomes will not materialize in terms of budget decisions for several 
years. Since full implementation of the JRC's Joint Assessment of 
Requirements--and its use to inform the Department's budget decisions--
is several years away, it is too soon to tell how effective it will be 
in prioritizing requirements and reducing duplication and 
inefficiencies, as intended.
    Question 13a. What has DHS done during the past year to mitigate 
staffing shortfalls in key positions, such as program managers, systems 
engineers, and logisticians?
    Answer. As part of its fiscal year 2016 workforce planning cycle, 
DHS identified 17 priority mission-critical occupations. According to 
DHS, the 17 priority mission-critical occupations account for 
approximately 64 percent of the civilian workforce and are the most 
critical to performing core DHS mission areas.
    For each of the 17 priority mission critical occupations, DHS 
applied its workforce planning cycle, which involves the following five 
steps:
  <bullet> set the strategic direction, including linking the workforce 
        and the strategy, considering the scope, and determining the 
        workforce balance;
  <bullet> conduct a supply analysis, demand analysis and identify gaps 
        in capacity and capability;
  <bullet> develop an action plan including strategies and actions to 
        address identified gaps;
  <bullet> implement the action plan; and
  <bullet> monitor, evaluate, and revise the plan.
    As part of its fiscal year 2016 monitoring and evaluation efforts, 
DHS reported that many of the 17 occupations met their defined targets 
or showed improvement in closing gaps.
    Additionally, DHS components develop annual Component Recruiting 
and Outreach Plans to guide recruiting efforts to fill gaps in priority 
mission-critical occupations. The Component Recruiting and Outreach 
Plans are to assist components in developing a systematic, sustainable 
process to ensure communication between recruiters and workforce 
planners to identify and address short- and long-term human capital 
needs.
    Question 13b. Another challenge is program-funding gaps, whereby 
estimated costs exceed projected funding. How has DHS addressed the 
emergence of funding gaps for key programs? What steps has the 
Department taken, or does the Department plan to take, to reduce the 
size and frequency of these gaps?
    Answer. In April 2014, we reported that DHS's major acquisition 
programs faced a 30 percent funding gap over a 5-year period, and made 
nine recommendations to help DHS take steps to close this gap.\23\ In 
June 2014, the DHS chief financial officer established a new process 
for improving the affordability of the Department's acquisition 
portfolio, which addressed one of our recommendations. In March 2016, 
we reported that this process has enhanced the Department's acquisition 
management process by creating a formal mechanism to address 
affordability issues at Acquisition Review Board meetings.\24\ However, 
we identified opportunities for DHS leadership to expand upon these 
efforts and made recommendations that they take additional actions, 
such as improving the information components provide on program 
affordability, conducting affordability assessments for programs that 
have not been reviewed at an Acquisition Decision Event since the 
funding certification requirement was established, and strengthening 
DHS's communications with Congress and the processes components use to 
address and communicate affordability information to leadership. Making 
such refinements to DHS's processes would better position the 
Department to ensure that Congress and taxpayers understand the 
investment needed to deliver the intended capabilities to the end-
users. We will continue to track the Department's progress in this 
area.
---------------------------------------------------------------------------
    \23\ GAO, Homeland Security Acquisitions: DHS Could Better Manage 
Its Portfolio to Address Funding Gaps and Improve Communications with 
Congress, GAO-14-332 (Washington, DC: April 17, 2014).
    \24\ GAO, Homeland Security Acquisition: DHS Has Strengthened 
Management, but Execution and Affordability Concerns Endure, GAO-16-
338SP (Washington, DC: Mar. 31, 2016).
---------------------------------------------------------------------------
    Question 14a. GAO has indicated that the Department has sustained 
its progress in implementing a human capital strategic plan. A 
significant initiative related to workforce planning in the 
administration of President Obama was the Balanced Workforce Strategy, 
which sought to identify the appropriate balance of Federal and 
contractor employees required to achieve the DHS mission.
    What is the current status of the Balanced Workforce Strategy and 
does GAO anticipate that the initiative will continue in the new 
administration? What specific changes in the strategy for and 
composition of the DHS workforce have resulted from the initiative?
    Answer. In December 2012, we reported that after issuing the 
Balanced Workforce Strategy in 2010, DHS developed an automated tool to 
help components perform the necessary analysis to determine the 
appropriate mix of Federal employees versus contractors.\25\ In its 
August 2016 Integrated Strategy for High-Risk Management, DHS reported 
that the use of this tool became mandatory in fiscal year 2014. In 
addition, DHS reported that the Balanced Workforce Strategy Division 
regularly monitors component use of the tool and that it had completed 
audits of ICE, NPPD, USCIS, FEMA, the Federal Law Enforcement Training 
Centers, and TSA's implementation of the Balanced Workforce Strategy 
and tool. We have not assessed how the Balanced Workforce Strategy has 
impacted the DHS workforce or how the change in administration may 
affect the implementation of the strategy.
---------------------------------------------------------------------------
    \25\ GAO, DHS Strategic Workforce Planning: Oversight of 
Department-wide Efforts Should Be Strengthened, GAO-13-65 (Washington, 
DC: Dec. 3, 2012).
---------------------------------------------------------------------------
    Question 14b. Are there any other workforce planning initiatives 
under way in the Department?
    Answer. DHS has developed a workforce planning model that involves 
the following five steps:
  <bullet> set the strategic direction, including linking the workforce 
        and the strategy, considering the scope, and determining the 
        workforce balance;
  <bullet> conduct a supply analysis, demand analysis, and identify 
        gaps in capacity and capability;
  <bullet> develop an action plan including strategies and actions to 
        address identified gaps;
  <bullet> implement the action plan; and
  <bullet> monitor, evaluate, and revise the plan.
    In September 2016 DHS officials indicated that DHS will continue to 
implement its workforce planning model in fiscal year 2017. 
Additionally, DHS components develop annual Component Recruiting and 
Outreach Plans to guide recruiting efforts to fill gaps in priority 
mission-critical occupations. The Component Recruiting and Outreach 
Plans are to assist components in developing a systematic, sustainable 
process to ensure communication between recruiters and workforce 
planners to identify and address short- and long-term human capital 
needs.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
